<html>
<title> - [H.A.S.C. No. 112-14] BUDGET REQUESTS FROM THE U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-14] 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

    BUDGET REQUESTS FROM THE U.S. CENTRAL COMMAND AND U.S. SPECIAL 
                           OPERATIONS COMMAND

                               __________

                              HEARING HELD

                             MARCH 3, 2011

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-114 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     

























                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Ben Runkle, Professional Staff Member
                Michael Casey, Professional Staff Member
                     Megan Howard, Staff Assistant























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 3, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Requests from the U.S. Central Command and 
  U.S. Special Operations Command................................     1

Appendix:

Thursday, March 3, 2011..........................................    35
                              ----------                              

                        THURSDAY, MARCH 3, 2011
 FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
      THE U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Mattis, Gen. James N., USMC, Commander, U.S. Central Command.....     5
Olson, ADM Eric T., USN, Commander, U.S. Special Operations 
  Command........................................................     3

                                APPENDIX

Prepared Statements:

    Mattis, Gen. James N.........................................    62
    McKeon, Hon. Howard P. ``Buck''..............................    39
    Olson, ADM Eric T............................................    43
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   119
    Mr. Scott....................................................   121
    Mr. Shuster..................................................   119
    Ms. Sutton...................................................   116
    Mr. Turner...................................................   116
    Mr. Wilson...................................................   115
 FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
      THE U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 3, 2011.
    The committee met, pursuant to call, at 1:00 p.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    We have been informed that there will be votes about 1:30 
today, but it is just one vote, so maybe we can work out the--
some can go vote and some can come back, and we can maybe do it 
without a break.
    This afternoon, the House Armed Services Committee meets to 
receive testimony from commanders of the United States Central 
Command [CENTCOM] and the United States Special Operations 
Command [SOCOM] on the posture of their respective commands.
    It is an understatement, perhaps, to say recent events give 
this hearing an even greater urgency. Developments in the past 
6 months and especially in the past 6 weeks present new 
opportunities and new uncertainties for our Nation's security 
and the environment in which CENTCOM and SOCOM operate.
    Extremist Islamist groups and their use of terrorism 
directly threatens the physical security of American citizens 
at home and abroad. Consequently, in Afghanistan, 100,000 U.S. 
service men and women are fighting to disrupt, dismantle, and 
eventually defeat Al Qaeda in the country from which it planned 
and conducted the 9/11 attacks.
    In the past year, our forces have reduced Taliban influence 
and arrested the momentum of Al Qaeda's allies, particularly in 
the Helmand and Kandahar provinces. Expanded Special Operations 
Forces' targeting of Taliban leadership and expanded local 
security measures at the village and district level have been 
an integral part of this momentum shift.
    Significant progress has also been made by the NATO [North 
Atlantic Treaty Organization] Training Mission in the 
development of the Afghan National Security Forces. Yet it 
remains to be determined whether these gains will be lasting. 
Nevertheless, the President remains committed to redeploying 
troops in just 4 months.
    Similarly, uncertainty surrounds the recent uprising in the 
Middle East. While inspirational and likely to undermine 
extremism's appeal over the long term, they also potentially 
undermine several pillars of our strategic posture in the 
region in the near term. For example, I read with concern 
comments from opposition leaders in Egypt that the Camp David 
Accords are finished.
    Instability may undermine efforts to build our partners' 
counterterrorism capacity, a particularly troubling scenario in 
Yemen, where Al Qaeda on the Arabian Peninsula [AQAP] continues 
to present the most significant risk to the U.S. homeland, 
according to the administration.
    Against the backdrop of these dramatic events, Iran 
continues research on key components for a nuclear weapon, the 
development of which alter the regional balance of power and 
allow Tehran to increase its longstanding support of terrorist 
proxies without fear of military retaliation.
    Also, we are scheduled to withdraw 50,000 U.S. forces from 
Iraq despite questions regarding that country's ability to 
defend itself from both internal and external threats.
    The blistering pace of current events and the uncertainty 
they have created raise difficult and important questions for 
the future of our national security. To address these issues, 
we are fortunate to be joined today by two officers with long 
and distinguished careers of service to their Nation: General 
James Mattis, Commander, U.S. Central Command; and Admiral Eric 
T. Olson, Commander, U.S. Special Operations Command.
    Gentlemen, I thank you for appearing here today and for 
your many years of service, devotion to your country. I take 
great comfort in knowing that warriors such as yourself are at 
the helm of leadership over so many great people that are 
laying their lives on the line every day on behalf of freedom 
around the world. Thank you for your service.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. With votes coming up so 
quickly, I will be very brief.
    I associate myself with the chairman's remarks. I think he 
perfectly summed up the challenges the two of you face.
    I do want to give special recognition to Admiral Olson 
since he is from Tacoma. I always have to mention that. A 
graduate of Stadium High School--not in my district, but it is 
the high school that my children would go to, so very close by.
    And I also, you know, really enjoyed working with you 
during my time as chair of what was then the Terrorism 
Subcommittee, which had jurisdiction over SOCOM. I have the 
highest admiration for the job you do and the job the people 
you command do, as well. And I appreciate that.
    And, General Mattis, you have the greatest responsibility 
of the commanders right now in a very, very complicated part of 
the world. And you are meeting those challenges very well and 
serving us well.
    I look forward to hearing your testimony and hearing the 
questions of Members about how we can help you to meet the 
challenges that both of you face.
    And, with that, I yield back. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. Thank you.
    Admiral Olson, this, I guess, is your last appearance 
before this committee. Is that correct? Last scheduled?
    Admiral Olson. It is the last scheduled appearance, yes, 
sir.
    The Chairman. Well, maybe we will be fortunate and it won't 
be your last.
    Would you please begin? And then we will hear from General 
Mattis.

 STATEMENT OF ADM ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Yes, sir. Thank you.
    Good morning, Chairman McKeon and Representative Smith and 
other distinguished members of the committee. I do thank you 
for this opportunity to appear before you to present the 
current posture of the United States Special Operations 
Command.
    We at the Special Operations Command do recognize that we 
were created by Congress, and our ability to meet our Nation's 
high expectations is due in large part to this committee's 
continued strong support.
    And I am especially pleased to share this hearing with my 
friend and teammate, General Jim Mattis. General Mattis' 
headquarters and mine are coincidentally located on the same 
base in Tampa, and we and our staffs work together quite 
closely.
    So, with your permission, I will submit my written posture 
statement for the record and open with some brief remarks.
    As Secretary Gates said in his speech at West Point last 
weekend and as you noted, Mr. Chairman, we do not know with 
certainty what the future of warfare will hold. The range of 
security challenges we face beyond Iraq and Afghanistan--the 
decentralization of Al Qaeda's network; revolutionary activity 
in the Middle East; destabilizing elements in Latin America, 
Africa, and Southeast Asia; increased intertwining of violent 
extremism and criminality; and persistence of piracy--tell us 
that it will be complex, unpredictable, and unstructured.
    United States Special Operations Forces are universally 
recognized as key to our Nation's ability to address all of 
these challenges and others.
    In many ways, USSOCOM is a microcosm of the Department of 
Defense, with ground, air, and maritime components, a global 
presence, and authorities and responsibilities that mirror the 
military departments, military services, and defense agencies. 
And we take pride in the diversity of our people and our 
mission.
    As the commander, I am responsible and accountable for the 
readiness of all Army, Navy, Air Force, and Marine Corps 
Special Operations Forces. With a dedicated budget and through 
my component commanders, I select, organize, train, equip, and 
deploy these forces to serve all of our geographic combatant 
commanders. With 85 percent of our deployed forces currently in 
the Central Command area of operations, my colleague to my left 
is by far the largest customer of our product.
    We include many forces of legend: Green Berets, SEALs [Sea, 
Air, Land], Rangers, Air Force Air Commandos, Army Night 
Stalker aviators, combat controllers, pararescue jumpers, 
combatant-craft crewmen, today's version of Marine Raiders, and 
others. The Active Duty practitioners of civil-military 
operations and military information support operations are also 
in our ranks. These are Special Operations careerists.
    They are backed by a talented and dedicated assortment of 
administrative, intelligence, communications, engineering, 
logistics, and other specialists who serve in Special 
Operations units on a less permanent basis. And our various 
headquarters also include over 300 representatives from at 
least 15 other agencies within and beyond the Department of 
Defense.
    I am convinced that the forces we provide to the geographic 
combatant commanders are the most culturally attuned partners, 
most lethal hunter killers, and most responsive agile, 
innovative, and efficiently effective advisors, trainers, 
problem solvers, and warriors that any nation has to offer. In 
fact, we have become the model for many of our partners.
    Our value comes from both our high level of skills and our 
nontraditional methods of applying them, which is to say that 
our principal asset is the quality of our people. Whether they 
are conducting a precision raid, organizing a village police 
force, arranging for a new school or clinic, or partnering with 
counterpart forces, they do so in a manner that has impressive 
effects.
    In Afghanistan and Iraq especially, it is undeniable that 
they have impact far above their relatively small numbers. And 
they are in dozens of other countries every day, contributing 
to regional stability by advising and training with counterpart 
forces.
    The balance of direct and indirect operations must be 
carefully managed, but, because Special Operations Forces live 
in both of those worlds, we become the force of first choice 
for many missions. As Admiral Mullen said in his testimony 
yesterday, Special Operations Forces are first in and last out.
    I am proud of these forces, as we all should be, but I also 
acknowledge that there are challenges. Key among them is how to 
meet the increasing global requirement for their capabilities. 
The demand is outpacing the supply, but we can't grow them more 
than a very few percent per year.
    Since 9/11, our total manpower has roughly doubled, our 
budget has roughly tripled, and our overseas deployments have 
quadrupled. And as I have said recently, this great force is 
beginning to fray around the edges. The fabric is strong, the 
weave is tight, it is not unraveling, but it is showing signs 
of wear. For some elements of our force, time at home has 
become the abnormal condition to which the family must adjust.
    Partial solutions include finding a process that will 
habitually and predictably assign units from the services to 
train and deploy with Special Operations Forces, ensuring our 
needs for local training ranges are fully met, providing the 
buildings and facilities that our force needs and deserves, 
investing more heavily in capabilities that will relieve 
Special Operations Forces from duties that do not require our 
unique skills, expanding the services' inventory of specific 
assets that are so essential to today's complex and irregular 
warfare, and recognizing and incentivizing many nontraditional 
skills such as language and microregional expertise as 
essential military requirements.
    We must ensure that our forces have the specialized 
equipment and advanced training they need to survive and 
succeed in the complex, ambiguous, and often violent 
environments in which we ask them to serve, which requires 
professionalizing the acquisition workforce and streamlining 
procurement processes.
    Underlying all of this is the need to look after our people 
and their families. We must rehabilitate and return to duty 
those of our wounded who can, care for those of our wounded who 
can't, along with their families and caregivers, and provide 
enduring support to the families of those who have died in 
action.
    I ask for your action to approve a defense budget for 
fiscal year 2011 and for your support for the fiscal year 2012 
budget proposal. I also ask that you carefully watch the 
Special Operations budget, particularly as forces eventually 
begin to draw down from major operations, because our Special 
Operations Forces will most likely be reallocated at the same 
levels to areas with pent-up demand for our unique 
capabilities, a point reinforced in Secretary Gates' testimony 
just yesterday.
    Thank you again for this opportunity to appear before you. 
You have reason to take great pride in what the men and women 
of Special Operations Forces are accomplishing around the world 
today and every day.
    I remain humbled by my opportunity to command this 
formidable force and provide it to answer our Nation's most 
daunting security needs. And, as I appear before you in this 
capacity for the fourth and most likely the last time, I am 
thankful for the profound honor of serving my country in this 
way.
    I stand ready for your questions.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 43.]
    The Chairman. Thank you, Admiral.
    General Mattis, I think this is your first time in this 
capacity.
    General Mattis. In this capacity, yes, Chairman, it is.
    The Chairman. Thank you. The time is yours.

   STATEMENT OF GEN. JAMES N. MATTIS, USMC, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Mattis. Thank you, Mr. Chairman, Congressman Smith, 
distinguished members of the committee. I appreciate the 
opportunity to discuss the posture and priorities of U.S. 
Central Command, testifying alongside a friend and shipmate of 
many years, Admiral Eric Olson, commander of U.S. Special 
Operations Command.
    I have submitted a written statement and request it be 
accepted into the record.
    Thank you for supporting our troops and their families who 
have carried the brunt of the physical and emotional burden in 
this 10th year of war. Our forces today are among the most 
dedicated and skilled professionals I have served alongside in 
my 39 years in uniform, and they constitute a national 
treasure.
    I also recognize the commitment and sacrifices of our 
international partners who operate with us, from the waters off 
Somalia to the mountains of Afghanistan, where the largest 
warfighting coalition in recent history is engaged with troops 
from 49 nations united in the fight against our common enemy.
    The strategic landscape of the broader Middle East has been 
altered by recent events in Tunisia, Egypt, Libya, and 
elsewhere. We see pressure on government institutions from the 
aspirations of people seeking improved economic and social 
conditions. Young people born in the information age are 
exchanging ideas in real-time.
    While the long-term impact of this unrest is unknown, it 
presents as many opportunities as it does challenges. The 
changes that we are seeing will manifest differently in each 
country. People are seeking their rights and, for the most 
part, doing so peacefully and bravely.
    It is too early to say how it will all turn out. It is 
important that we work today with the people and the 
governments throughout the region. We don't want to see this 
change slide into a new form of authoritarianism. So, while 
there is both opportunity and danger, it requires unrelenting 
engagement by our Nation. The central challenge for us, I 
believe, is how to make common cause with our friends 
throughout the region.
    There is one clear lesson we can draw from the dramatic 
changes under way: Now, more than ever, we must remain 
relentlessly engaged with our military partners across the 
region. While we know each country is different, we remain 
committed to strengthening our military bonds and advancing our 
mutual interests in peace and opportunity for all.
    Notably, in Egypt we have clearly seen the benefit of 
mature military-to-military relationships. The Egyptian armed 
forces continue to demonstrate exceptional discipline and 
restraint under trying circumstances, serving honorably. As 
Admiral Mullen recently noted, our assistance has helped the 
Egyptian military become the professional force that it is 
today, just as our military, in turn, has learned a great deal 
from our Egyptian counterparts who have contributed a 
stabilizing influence in this time of transition.
    Of course, we cannot achieve our broader objectives in the 
region through military means alone. Our efforts require 
coordination and a spirit of collaboration between highly 
integrated civilian military teams. Our civilian colleagues 
need your full support, even in this difficult fiscal 
environment, to undertake their essential role in today's 
complex environment.
    Robust resourcing for the State Department's mission is one 
of the best investments for reducing the need for military 
forces to be employed. Together, our military leaders and 
diplomats not only represent a symbol of America's enduring 
commitment to this region, but they also build trust through 
partnerships that have an important stabilizing effect when 
trouble looms.
    CENTCOM's main effort is in Afghanistan, where, along with 
our Afghan and coalition partners, we are making undeniable 
security progress, though some of our gains remain fragile and 
reversible. Al Qaeda in the border region between Afghanistan 
and Pakistan is under the most pressure they have experienced 
since 2001. Over the past year, our enemies have lost leaders, 
they have lost battle space, maneuver room, and the initiative. 
And the enemy's strategy has been undercut by the clear 
commitment of the international community and the Afghan 
Government to begin, this summer, a process of fully 
transitioning responsibility to Afghanistan lead by 2014.
    I support the President's ongoing analysis of further 
growth for the Afghan National Security Forces. Their 
quantifiable and qualifiable growth in capability has been one 
of our greatest successes over this last year. With this 
improving quality in combat performance by the Afghan security 
forces, we are seeing the enemy's worst nightmare coming of 
age.
    The transition process will start with a limited, 
conditions-based withdrawal this year. Our overall campaign is 
on track in Afghanistan. Our successes, as General Petraeus has 
stated, entailed hard fighting and tough losses, and there will 
be tough fighting ahead as the enemy tries this spring to 
regain the initiative. Finally, we must also redouble our 
efforts in order to address the challenges in the areas of 
governance and development.
    Turning now to Pakistan, we are strengthening and deepening 
our security relationship with Islamabad, even as we work to 
overcome years of mistrust and misunderstanding on both sides. 
The Pakistanis have shifted a quarter of their army, 140,000 
troops, to the western border. And we are now conducting 
hammer-and-anvil operations in close coordination with them on 
opposite sides of the border.
    Pakistan's military has conducted significant 
counterinsurgency ops in the past decade, and having suffered 
2,757 troops killed and 8,549 wounded while also responding to 
urgent humanitarian needs following devastating floods in 2010.
    In Iraq, we are helping a new, more stable country emerge 
in a turbulent region. Our commitment there is transitioning 
from a military- to a civilian-led effort. I will note that the 
transition under way in Iraq has been enabled in large part 
thanks to the vital commitment and support of Congress for our 
troops on the ground, and I want to personally offer my thanks 
to you.
    As we transition to civilian lead in Iraq, it is essential 
that the State Department be sufficiently resourced to solidify 
relationships between the U.S. and Iraq. At CENTCOM, we need 
congressional authorities that enable us to continue advising, 
training, and equipping our Iraqi partners through the new 
Office of Security Cooperation-Iraq.
    Looking ahead, we will redeploy our military forces from 
Iraq this year, unless asked to stay by the Iraqi Government 
and the U.S. Government concurs. I anticipate Al Qaeda in Iraq 
and Iranian-sponsored proxies will attempt to execute 
sensational attacks against us in the coming months.
    Next, Iran. The greatest threat to long-term regional 
stability is a defiant Iran in its current state. We are 
countering the malign activities of the regime, while 
bolstering relationships with our partners. Iran continues to 
rebuff international efforts for engagement, continues to 
coerce its own population, and continues to pursue activities 
disruptive to regional peace and stability, including supplying 
arms to militant proxies in Iraq and Afghanistan and supporting 
Hezbollah in Lebanon.
    But for the vibrant people of Iran, the regime is no giant. 
The regime's actions have thrown the economy into disarray, 
destroyed rapport with the bulk of the world, and spread hate 
and discontent across the region, steadily eroding any 
international support the regime could once muster.
    Despite the shrinking stature of the regime, I have no 
reason for optimism about Iran's pursuit of a nuclear-weapons 
capability, of its growing ballistic missile arsenal, and 
present destabilizing course.
    Across the region, we are disrupting Al Qaeda and other 
violent extremist organizations. We are actively focused on the 
threat of extremism in Yemen, especially Al Qaeda in the 
Arabian Peninsula, the group that has twice attempted to attack 
our homeland in recent years.
    With our international partners, our Special Operations 
Forces are putting our most violent enemies and related 
networks under increasingly intense pressure. At the same time, 
the populist-inspired changes that are taking place across the 
region undercut the message of Al Qaeda and other extremist 
groups, highlighting the bankrupt philosophies of terrorists 
who use violence and contribute nothing but mayhem to the 
innocent. In direct repudiation to violent extremists, young 
folks today have achieved more change in 10 weeks than 10 years 
of Al Qaeda's murderous campaigns.
    So that is a snapshot of our major ongoing operations. We 
are focused on a number of other important mission areas, as 
well, to include countering piracy. There can be no more stark 
reminder about the need for more proactive diplomatic, legal, 
and military efforts against pirates than the brutal murder of 
four Americans by pirates last week.
    This is a defining moment for the people in this region 
and, by extension, a critical moment for CENTCOM to remain 
engaged with our partners and to clear away obstacles to peace 
and prosperity.
    On that note, while Israel and the Palestinian territories 
are not in my assigned theater, lack of progress toward a 
comprehensive Middle East peace affects U.S. and CENTCOM 
security interests in the region. I believe the only reliable 
path to lasting peace in this region is a viable two-state 
solution between Israel and Palestine.
    The issue is one of many that is exploited by our 
adversaries in the region, and it is used as a recruiting tool 
for extremist groups. The lack of progress also creates 
friction with regional partners and creates political 
challenges for advancing our interests by marginalizing 
moderate voices in the region. By contrast, substantial 
progress on the peace process would improve CENTCOM's 
opportunities to work with our regional partners and support 
multilateral security efforts.
    We know that you face tough decisions in this constrained 
fiscal environment, ladies and gentlemen. In all of our 
activities at CENTCOM, we honor the obligation to be the best 
stewards possible of our Nation's monetary resources. CENTCOM 
has established stringent control mechanisms to execute our 
fiscal authorities and to apply increasingly effective 
oversight of all our programs.
    Finally, Mr. Chairman, Congressmen, and Congresswomen, we 
must never forget the families of those who gave their last 
full measure in defense of liberty.
    Thank you once again for your support of our men and women 
serving in the Central Command region. I am prepared to answer 
your questions.
    [The prepared statement of General Mattis can be found in 
the Appendix on page 62.]
    The Chairman. Thank you very much.
    Without objection, both of your statements will be entered 
in the record.
    The vote schedule has changed. It is now two votes, so we 
will have to recess. But I will hold my questions until later, 
and I will turn now to Ranking Member Smith. And, after his 
questions, we will recess for 10 to 15 minutes, as soon as we 
can get back.
    Mr. Smith.
    Mr. Smith. I will endeavor to do this quickly, in light of 
that. And I just have four questions, and a couple of them--one 
of the things I am doing, with Congresswoman Giffords being 
out, I am working with her staff to ask questions that she has, 
as well. So two of these are hers, and two of these are mine.
    But the first one that I do want you to get to, Admiral 
Olson, as quickly as possible: You have significant MILCON 
[military construction] challenges. We have grown your force a 
lot in the last 5 or 6 years. We have not grown the facilities 
to accommodate it.
    Could you say just a couple quick words about your needs in 
the MILCON area?
    Admiral Olson. Yes, sir. We do have significant needs. 
There were disconnects between the growth of the force and 
growth in MILCON.
    And to add to that, we inherited buildings when Special 
Operations Command was created without inheriting a budget to 
recapitalize them. So we are in a period, a state over the next 
10 to 15 years of having to swallow this large chunk of MILCON 
recapitalization.
    Mr. Smith. I just want the committee to be aware of that. 
And as we look at our budget efforts here, we should try to 
help out in any way we can.
    General Mattis, I have two questions, one of them from me, 
one of them from Congresswoman Giffords. She has an interest in 
the--well, sorry. Her interest is in the energy area. And you 
have considerable fuel requirements. You have been quoted as 
saying that you need to be ``unleashed from the tether of 
fuel'' and the challenges that that presents.
    Efforts at generating alternatives and efficiencies can 
make a huge difference in you being able to prosecute the 
fights you need to prosecute. Can you tell us a little about 
your efforts in CENTCOM to deal with the challenges you have in 
the fuel area?
    And then, an area that I am particularly interested in is 
something that I read an article about just recently, and that 
is efforts to counter Al Qaeda's messaging over the Internet. 
CENTCOM seemed to have gotten out front on that. I think this 
is critical. This is where they are spreading their ideology, 
certainly in your region, but throughout the world. This is how 
they are recruiting the people. They are doing it in an 
incredibly sophisticated way that we are woefully behind on. 
You guys seem to be stepping up and trying to address that.
    So could you talk a little bit about the fuel and about the 
Internet ideological battle?
    General Mattis. Yes, sir, I will.
    On the fuel, it is a significant Achilles heel for us when 
you have to haul the amounts of fuel that we have to haul 
around the battlefield for the generators and for the vehicles.
    We are working with DARPA [Defense Advanced Research 
Projects Agency], we are working with a number of civilian 
organizations to try and find solutions. There are efforts 
under way to make more expeditionary bases which would actually 
generate some of their own energy requirements using, for 
example, solar power. In many of these places, there is a lot 
of sunshine. If we can get expeditionary capability to capture 
that and then basically recharge our batteries.
    I mean, it is an amazingly complex effort to maintain the 
fuel lines. And it also gives the enemy an ability to choose 
the time and place of attacking us. We are engaged with Science 
and Technology, we are engaged with DARPA, and we are looking 
at very pragmatic ways of doing this.
    We are also looking at what we can do to actually change 
how we distribute fuel, to reduce the enemy's opportunities to 
come after us. And I could meet privately with you on some of 
those matters that I would prefer not to speak about in open 
session.
    On the Internet effort, the point I would make is that the 
enemy is using the Internet exactly along the lines that you 
defined. They use it for recruiting, is the one that comes 
immediately to mind. We can directly track some of this.
    In broad terms, we challenged their propaganda. We disrupt 
the recruiting. We have showed that it is silly to go down this 
line, that it just doesn't make sense. We bring out the 
moderate voices; we amplify those. And in more detail, we 
detect and we flag if there is adversary, hostile, corrosive 
content in some open-source Web forum. We engage with the Web 
administrators to show that this violates Web site provider 
policies.
    And probably more telling about how we engage here, we have 
a Digital Engagement Team at CENTCOM. It is fully attributable. 
But we engage with the people in the region who come up on the 
Web and start exchanging ideas. And we give factual and 
accurate information to counter enemy propaganda and lies 
through using the Web and the blog sites. We do this in Arabic, 
Farsi, Urdu, and Pashto.
    But we are engaged in the Internet fight.
    Mr. Smith. And this is something that I think DOD-wide and 
intelligence-community-wide we have to be engaged in. Because 
the way Al Qaeda has changed since 9/11, certainly the AQ 
senior leadership is still a threat, but the larger threat is 
the way they generate self-starters, sort of homegrown 
terrorists, who go on the Internet, get inspired by this stuff. 
And it has increased to a level that I think would shock a lot 
of people, and we need to be much more aggressive about that.
    Now, the last question I have is on nonlethal means of 
subduing the enemy. I will take that one for the record. It is 
something Congresswoman Giffords is interested in, as well. If 
you could just update us a little bit, Admiral, you know, send 
something to us on the record about what you have been doing 
with nonlethal uses of force. There has been considerable 
advancement there.
    [The information referred to was not available at the time 
of printing.]
    Mr. Smith. And I do just want to conclude by making a 
special thank you to the Special Operations Command, and the 
Navy SEAL team in particular, that, shortly after the incident 
in Tucson, went out on a mission in Congresswoman Giffords' 
honor. They actually flew a flag for that mission and then made 
sure that it got to her where she is rehabilitating. That means 
a great deal to her and to all of us.
    Your dedication and support for her and this committee is 
very much appreciated. And, certainly, the work you do for our 
country is very much appreciated, as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We will adjourn now for 10 to 15 minutes, in time to vote 
and get back. Mr. Bartlett will be the first questioner when we 
get back. Thank you.
    [Recess.]
    The Chairman. The committee will come to order.
    That 10 or 15 minutes, I think, became about a half-hour. 
We had a few other things that happened over there.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    General, on page 9 of your written testimony, you say that 
China pursues its many energy-related interests throughout the 
region. I have a couple of slides that may help put that in 
context.
    If we can have the first one. Let's see if it shows up on 
the screen.
    Three things of significance in this first slide while it 
is coming up. First of all, there is now general recognition--
the large blue below--that we have reached the world's maximum 
production of oil; that, from now on, it is simply going down. 
This is in the oil fields we are now pumping oil from. By 2030, 
they say that we will be getting considerably less than half 
the oil from those fields that we are getting now.
    There are two wedges there, the blue wedge and the red 
wedge, that say we are going to be getting a lot of oil from 
fields that we have now discovered but not developed and, 
surprisingly, fields yet to be discovered. This is a 2008 
slide. And notice that they believe that, by 2030, they believe 
then that we would be getting about 106 million barrels per 
day.
    The next slide, by the same people, the World Energy 
Outlook, they now have decreased their projection of what we 
will have. By 2035, 5 years later, they say we are only going 
to have 96 million barrels per day. They now believe that we 
are only going to be getting, what, about a fourth of the oil 
from the fields we are pumping now. We will only be getting 
about a fourth of that in 2035. And the wedges of the oil 
fields yet to be developed and fields yet to be discovered has 
grown even further.
    The next chart kind of puts this in context and tells us 
what the probability is that we are going to find all that new 
oil. This is the oil chart, and what it shows, the vertical 
bars show the discovery of oil through the years, most of it in 
the 1940s, 1950s, 1960s, 1970s. And from 1980 on, we every year 
use more oil than we found. We were then dipping into reserves. 
This was a 2004 chart, and what it shows is that they 
predicted, quite correctly, that we would be peaking oil about 
now.
    A 10-billion-barrel find of oil is pretty big, sir. Every 
12 days, the world uses a billion barrels of oil. That means 
that 10-billion-barrel find will last the world 120 days. A big 
deal.
    The next chart, General, really illuminates your area. It 
shows what the world would look like--and, boy, you own most of 
it--if the size of the countries were relative to the amount of 
oil they have. Now, you have to shrink Saudi Arabia a bit 
because WikiLeaks, a couple weeks ago, indicated they have been 
fibbing about how much oil they have. I suspect most of OPEC 
[Organization of Petroleum Exporting Countries] has. But look 
at the size of China and India there, how small they are.
    The next chart, again very relative to your area of 
responsibility, shows the chokepoints where the oil must flow 
through if they are going to get to other parts of the world.
    The 2010, the next slide, the 2010 Quadrennial Defense 
Review makes a very sane statement: ``Energy security means 
having assured access to reliable supplies of energy and the 
ability to protect and deliver sufficient energy to meet 
operational needs.''
    The next chart, this is Joint Operating Environment 2010. 
It says, ``Even assuming more effective conservation measures, 
the world would need to add roughly the equivalent of Saudi 
Arabia's current energy production every 7 years.''
    General, those two wedges of developing fields we have now 
found but not developed and fields yet to be discovered, that 
is pure wishful thinking, sir. That ain't gonna happen.
    The second statement there, ``A severe energy crunch is 
inevitable,'' put a period there, because there is no amount of 
money that you can spend to produce oil that isn't there.
    And the last statement is just plain wrong, because oil has 
already peaked, conventional oil, in 2006.
    Sir, why is not this the perfect storm? The United States 
owns only 2 percent of the world's oil; we use 25 percent of 
the world's oil. We are not buying oil anywhere in the world. 
China is buying oil reserves everywhere in the world that they 
can find them.
    The peaking of oil occurs just at the time the developed 
world, us and the rest of the developed world, needs more oil 
to come out of the recession. The developing world, India and 
China, are demanding hugely increased amounts of oil.
    The WikiLeaks thing indicates there is less oil out there 
than we thought was out there, and there is huge unrest in your 
area of responsibility.
    Sir, what do you think the odds are that we can avoid armed 
conflict over oil in the future?
    General Mattis. Congressman Bartlett, I have--because I am 
born an eternal optimist, I think it is always a matter of 
choice. That said, I think that you highlight a critical point. 
Certainly, history would give a more pessimistic response than 
I just gave if we studied the results of competition like this.
    I think it does point to the need for looking at every 
energy resource that we have, not just oil, because this is, as 
you point out, inevitable.
    But I think that there are different ways to solve 
problems. And I think we may actually be on the cusp of a time 
when, if all this change goes in a positive direction, you may 
find collaboration. If it goes otherwise, then we are going to 
have to be ready.
    Mr. Bartlett. Thank you.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    We have reached the period of peak oil, I think is what Mr. 
Bartlett was saying, and we are going to have to develop new 
sources of energy. What impact does it have if we are not doing 
basic research into that area? Either one of you, I would like 
a response. Because, of course, we have been cutting--we have 
been busy cutting Federal spending in every place other than 
defense.
    How does our vulnerability increase commensurate with the 
cuts that are being proposed, the drastic cuts being proposed 
to the budget, science? Can you respond?
    Admiral Olson. Sir, from a Special Operations perspective, 
I will just tell you that we can shift to alternative energy 
measures as rapidly as they can be developed and 
operationalized. But I am not an expert on the pace of that or 
the probability of that. But we certainly would look forward to 
development that would move us in that direction.
    General Mattis. Congressman, I think that I can't draw a 
direct line, I am probably not competent to draw a direct line 
between basic research and developing new sources. But, 
clearly, developing new sources reduces our dependency on the 
oil. And, if we do so, it reduces the potential for the outcome 
that Congressman Bartlett just mentioned, of conflict over 
diminishing resources, sir.
    Mr. Johnson. Thank you.
    We have a role that we have adopted--that is, of a global 
policeman. And our forward posture around the world will have 
to be curtailed as we adapt to the new realities of our time. 
And one of those realities is our energy--or our dependence on 
current means of energy production.
    And, also, we have been nation-building for the last decade 
in one of the most inhospitable and lawless places on Earth. I 
am talking about Afghanistan. We have to accelerate the end 
game. We have to achieve an acceptable security environment 
soon. That means we cannot merely increase the capacity of the 
Afghan Government to kill its enemies; we have to aggressively 
shrink the ranks of its enemies by bringing them back into the 
political fold.
    General Mattis, as General Petraeus, your predecessor at 
CENTCOM, has said, quote, ``You don't end an industrial-
strength insurgency by killing or capturing all the bad guys. 
You have to kill, capture, or turn the bad guys. And that means 
reintegration and reconciliation.''
    As we approach the 10th anniversary of the Bonn conference, 
where are we on the reconciliation piece of that strategy? What 
will a likely political settlement look like? And, General 
Mattis, do you anticipate that we will have a sizable military 
footprint in Afghanistan through 2014?
    General Mattis. Congressman, military success, such as we 
are seeing today, undeniable on the battlefield, sets the 
conditions for improved economics, improved governance. You 
cannot have those two unless you have military protection of 
the people.
    So, once you have that, we have a multi-pronged approach 
here. One is transition, where we actually start transitioning 
this July to an Afghan-led security structure in certain 
districts and provinces based on conditions, as the commander 
in chief has said.
    That transition is aided and abetted by reintegration of 
young men who are giving up the fight, recognizing they aren't 
on the winning side, they no longer want to be with people who 
simply cause mayhem, and they see this new government gaining 
traction. So, from the bottom up, you see reintegration. 
Reconciliation is top-down.
    As we set the conditions where this enemy realizes they 
can't wait us out--and the Lisbon declaration, where we said 
that the united force that is on the battlefield will be there 
through 2014, has helped in this regard--it means that they 
have got to start reconciling. We don't reconcile with our 
friends; we reconcile with our enemies. So we are going to be 
working with the Taliban to bring them over as they sense they 
no longer have an opportunity for military victory.
    In order to come over--you asked what the settlement would 
look like. I think it is very simple: The Taliban must abandon 
Al Qaeda, they must quit using violence, and they must accept 
the Afghan constitution. At that point, they are welcome back 
into the process, a process led by the Afghan people, as it 
must be.
    But we will have significant military forces there for the 
near future. We will start bringing them down in July, but we 
are committed through 2014, by which time all of the districts 
and provinces will have transitioned over to Afghan lead.
    I think that addressed your question, sir.
    Mr. Johnson. Thank you, General.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Chairman.
    And thank you both for being here.
    Admiral Olson, I want to join in the accolades and the 
gratitude for your service in this capacity at a very important 
time when you have headed Special Operations Command. The 
country has been fortunate to have you there, at this point in 
particular.
    I notice in your written testimony you talk about the 
shortage of readily available local training ranges for SOCOM 
and even that, too often, our operators have to travel to 
train, which means that is even more time away from their 
families and away from their homes.
    Does SOCOM have a plan to improve that situation? This is 
obviously an area where we can help, but we want to be 
consistent with what is in the long-term planning of SOCOM.
    Admiral Olson. Thank you, sir.
    I would say our intent is larger than our plan, at this 
point. Special Operations Command at MILCON can build ranges, 
but we don't own them. We are building them in facilities that 
then we need to use. And, in many cases, we can't build the 
ranges that--we can't build all of the ranges that we need. We 
have to use ranges, preexisting ranges, that are controlled by 
the Army, Navy, Air Force, and Marine Corps.
    As you know well, we are in some places where those ranges 
are available nearby, but we are in some places where there 
just aren't ranges nearby. And so my intent is to provide for 
our force, as much as possible, ranges on which they can train 
in the day and be home that night, in order to reduce this 
pressure on the force, sir.
    It is within our MILCON budget to make some progress on 
that, but we are also going to have to continue to work with 
each of the services to arrive at a better means of 
coordinating use.
    Mr. Thornberry. Well, we want to assist in--I want to 
assist in that effort, anyway. And I think this committee can 
be of some help.
    General Mattis, yesterday Secretary Clinton testified in 
front of the Senate Appropriations Committee that Iran is, 
quote, ``very much involved,'' end quote, with the opposition 
in Yemen, they are reaching out to the opposition movement in 
Bahrain, they are having contacts with some of the opposition 
groups in Egypt through Hezbollah and Hamas.
    I guess the question is, have you seen reporting that would 
support that? And if there is increased Iranian influence in 
those places, what effect does that have on our 
counterterrorism efforts and our mil-to-mil connections?
    General Mattis. Thank you, sir.
    I have seen the reporting that Secretary Clinton referred 
to. We have seen some influence in Yemen. In Bahrain, I think 
the Iranian, the Tehran regime--not the Iranian people, but the 
regime there--is incapable of not minding its own business, and 
I have no doubt that they are engaged in any way they can. That 
is not to say the bulk of the people in Bahrain are in any way 
stooges of the Iranians. The Bahraini people are quite capable 
of making up their own minds without malign influence out of 
Tehran.
    I think what the effect of this is, is negative on our 
counterterrorism campaign. But I would also say that this 
simply gives more credence to us staying relentlessly engaged 
across the region so that we not allow vacuums. And this means 
we are going to have to stay engaged at times when we don't 
know the outcome of certain processes that these countries are 
going through in this transition time.
    Mr. Thornberry. Okay.
    Let me ask one other thing. Additionally, yesterday there 
was an article about Central Command and some information 
operations. I know there is not much we can talk about in that 
area, but I would be curious, for either of you, whether you 
have had your lawyers review the applicable laws and procedures 
to see whether they hamper your ability to do what you would 
like to do and might need some updating and modernizing.
    This article, for example, cites some operators complaining 
that there are too many hoops to run through and so forth. And 
I think one area in our bailiwick is looking at the law and 
seeing if it is consistent with operations but, of course, also 
our values.
    And my question is, have you had lawyers look at that 
issue?
    General Mattis. For CENTCOM, we have had our judge 
advocates and our lawyers look at this and the authorities we 
need to conduct these operations. We consider that, in today's 
changing world, these are now traditional military activities. 
They are no longer something that can only be handled by Voice 
of America or someone like that. So we do need the authorities. 
We are very careful right now to stay strictly within the 
guidelines of the law. And we do have ongoing blog fights, you 
know, where we go in and we contradict inaccurate information. 
And it is fully attributable, at this point.
    The Chairman. Thank you.
    Mrs. Castor.
    Mrs. Castor. Thank you, Mr. Chairman.
    The Tampa Bay area is a very patriotic community, and we 
are very proud to host SOCOM and CENTCOM at MacDill Air Force 
Base.
    And, particularly, Admiral Olson, being there for the past 
few years, you are just a beloved member of the community now. 
And they will be very sorry to see you transition out.
    So I will be a little parochial just to begin my questions. 
Along with my colleague, Congressman Bill Young, over the past 
few years, there has been great investment that has matched the 
growth in missions of CENTCOM and SOCOM at MacDill, but it 
still appears to be unfinished--parking issues, other 
complications right there.
    Can you spend just a quick moment on--I know that the 
greater MILCON needs for SOCOM are all across the country, but 
there on MacDill Air Force Base, what would be the top of your 
list that remains unfinished at this point?
    Admiral Olson. Ma'am, as you know, we have had a fair 
amount of construction over the last several years, and we have 
some programs in the future. We have just, as you mentioned, 
built a parking garage, which we probably should have built 
first, but in the end it is serving us quite well. And we are 
finishing up a couple of other projects.
    I think that we are always--we are in the mode now of 
upgrading and recapitalizing, rather than expanding, within the 
base. And we are always interested in improvements to the base 
itself, on which we are tenants, that improve the quality of 
life and the quality of service for our people.
    General Mattis. Ma'am, as you know, thanks to the Congress, 
we are getting a new headquarters there to replace one that is 
really getting a little aged.
    The only thing I think I need right now is an issue we are 
working on, and that is for quality of life, is a parking area 
so our folks don't have to walk a half-mile or further to get 
to work.
    But Congress has taken very good care of us, and we have 
excellent facilities coming on line by spring.
    Mrs. Castor. Thank you very much.
    And I also wanted to ask you about Pakistan. We provide a 
lot of support to Pakistan through coalition support funds, 
through foreign military financing, Pakistan counterinsurgency 
and counterinsurgency capability funds. And yet we are still 
struggling to get the Pakistanis and the army to really be a 
better partner in helping us disrupt the Taliban headquarters 
or where they are meeting and plotting. They could be a better 
partner in the FATA [Federally Administered Tribal Areas] 
areas. They need to continue to reorient themselves from India 
toward Afghanistan and the other real threats in the area.
    What are you doing to--you know, with this great investment 
that the U.S. puts up, with those funds I previously mentioned, 
what kind of conditions do you put on that military assistance 
in aid to continue to convince the Pakistanis to be a better, 
more attentive partner?
    General Mattis. That is an excellent question.
    The funds themselves, we track them. We track them--I have 
some very keenly attentive field-grade officers in Islamabad. 
They work daily with the Pakistani counterparts. And we 
routinely require additional confirmation that, in fact, the 
equipment we are giving or the money we are giving is going to 
support those operations in the FATA against our common 
enemies. That money is tracked very, very carefully.
    I think the growing rapport--especially with our hammer-
and-anvil operation, where we are doing something on our side 
of the border, they are doing something on their side, 
collaborating now down to lower-ranking officers as they talk 
back and forth across the border. And we have had some dramatic 
successes lately.
    I just came back from a meeting that Admiral Mullen and 
General Kayani held. We met in Oman with General Petraeus, 
Admiral Olson and I and several of General Kayani's officers 
and the American officers. And I was impressed by the level of 
rapport between General Petraeus and General Kayani.
    I think the point to look at, ma'am, is that, after 1989 or 
1990, we walked away from this area. During that period, 
history did not stand still. And when we came back in 2001, 
there was a sense of abandonment by the Americans. That has 
engendered a certain level of distrust that we have had to work 
to overcome.
    It is not perfect. In any war, as a British Prime Minister 
put it, the only thing more difficult than fighting with allies 
is fighting without them. But we have 48 allies in this battle, 
and Pakistan is the key ally. And they have suffered right now 
over 2,700 killed, they have suffered over 8,600 wounded. Their 
civilians, they have lost a presidential candidate, Mrs. 
Bhutto. They have lost nearly 30,000 civilian casualties.
    So it is not a perfect solution in the high country. Your 
question is valid. But I see it improving. And I think that is 
the trend line we have to be focused on, what they are doing up 
there.
    Mrs. Castor. Thank you.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And, Admiral Olson, let me also add thank you from a 
grateful Nation for what you have done, standing in the breach. 
And, actually, thank you for the men and women you lead, who do 
the toughest of what needs to be done out there.
    Your comment--and I will get it wrong, but you said, ``The 
fabric is strong, weave is tight, but it is showing some wear'' 
on the team. In the rest of the forces, we understand dwell 
time and the standard that we set for deployments, and we are 
trying to get to 2:1 Active Duty, 4:1--I think that is a proper 
metric.
    I am struggling with a metric for your team and the terms 
so that we can see what a standard would look like and then 
compare that to what you are actually doing. And I don't know 
if you track operations per deployment or, you know, some--but 
in your realm, I don't think just deployment is the same as a 
deployment in other areas, because of the every-night thing 
that your folks do.
    And so, have you guys looked at some sort of a standard 
that says, if we had all the SOCOM folks we needed, they would 
be deployed, during that deployment they would have X number of 
operations, and then they would come home and be there for some 
period of time in order to heal the mind--heal the bodies 
quicker, but heal the mind for all the stuff that goes on? Is 
there some sort of metric you can help us understand so we can 
compare where we are with where we want to get to?
    Admiral Olson. Thank you, sir.
    We have done a lot of work on metrics, and we are exceeding 
the pace of deployment against all of the metrics that we have 
worked up. There are a thousand different ways to get at this, 
no one solution. But we are trying to figure out all of the 
ways that we can chip away at each person gone each day, to see 
how we can back away from that in the many small ways that 
ultimately would make a real difference.
    But the short answer is, yes, sir, we have worked the 
metrics hard.
    Mr. Conaway. In the rest of the force, if they are doing 
1:1 dwell time versus deployment and the goal is 2:1, I have a 
sense of where we have to get to. Can you share some of those 
metrics with us as to what the scope of the shortfall is, 
either the shortfall in folks and/or an over commitment of the 
team that--we work on both ends, but I don't have any feel for 
what you are----
    Admiral Olson. Yes, sir. We are working all ends, all 
sides. We try to build to 3:1. We understand surge deployments 
at 2:1. We have a red line of 1:1. But certain elements of our 
force are deployed more often than that.
    Mr. Conaway. Okay. Well, if there is a better way to help 
Members of--I know you understand it and you get it. If there 
is a better way for you to help us understand it, create a 
sense of urgency as to what is out there, it would be helpful.
    General Mattis, working off Ms. Castor's comments, you may 
have said during your opening comments that the great benefit 
we had for 30 years of mil-to-mil interaction with the Egyptian 
military and the benefit that appears to have paid off in the 
way they have reacted throughout this change in government.
    Can you talk to us--and you mentioned briefly that we 
basically ceased mil-to-mil conversations in Pakistan for a 10- 
or 12-year period. What is going on--we have been there now 10 
years, or almost, so we maybe have recouped that. But there is 
a whole tranche of folks who grew up without having any contact 
with America. They are now in charge.
    Can you talk to us just briefly about how that is impacting 
our mil-to-mil, as well as what the current dustup with our 
civilian with diplomatic immunity being held is having on your 
team?
    General Mattis. I can, sir. And it builds on Congresswoman 
Castor's question because, when you have from 1989 to 2001 
broken contacts, those officers continue up in the ranks. Like 
I said, nothing stands still.
    Fortunately, the officers right now in command are still 
ones who went to Leavenworth, who went to Maxwell, who we did 
have relations with. Unfortunately, when they move 140,000 of 
their troops, a quarter of their army, off the Indian border 
and up into the high country, the majority of them are led, of 
course, by lieutenants, captains, majors, lieutenant colonels 
who we did not have that rapport with.
    Thanks to Admiral Olson's folks, we very quietly work with 
our Pakistan counterparts, and, one by one, we are rebuilding 
the bonds of trust. But it is going to take a while to recover 
from the very point that you made, years of basically 
disenchantment between----
    Mr. Conaway. Yeah. Any direct impact on the issue with the 
diplomat who has immunity and being held, what you--the things 
you are trying to get done, day in and day out?
    General Mattis. No, sir, I don't believe so.
    Mr. Conaway. All right.
    Thank you, gentlemen. Appreciate it.
    Yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General Mattis and Admiral Olson, thank you for your 
testimony today. And the Congress and the American people 
certainly owe the both of you a great debt of gratitude, and 
the people that serve under you. And, obviously, you are very 
likely, currently and in the future, to remain the very tip of 
the spear in the fight against global terrorism. I want to 
thank you both for your service.
    Admiral Olson, SOCOM sits at a unique juncture in the 
military structure, in that it can benefit from ongoing efforts 
throughout the services as well as find its own unique ways 
internally to accomplish the mission.
    I would like to focus a little bit, if I could, on your 
science and technology efforts. In your testimony, you briefly 
mentioned SOCOM science and technology efforts. And I would 
like you to, if you could, take a moment to more fully explain 
how SOCOM contributes to, and benefits from, science and 
technology efforts within DOD [Department of Defense]. Can you, 
in particular, explain instances where SOCOM undertook its own 
S&T [science and technology] efforts in the areas where time-
sensitive requirements exist?
    Admiral Olson. Yes, sir. Thank you.
    Special Operations Command is a relatively small force, and 
our needs are often quite peculiar to Special Operations force 
requirements. So we do have an R&D--a research and development, 
a science and technology budget that we use to invest in some 
items that are, sort of, invented for Special Operations 
purposes. But we also use that to contribute to service 
investment in order to ensure that the services are making 
Special Operations considerations in some of their development 
projects.
    I have a senior science and technology advisor on my staff. 
He is in good contact with all of the services and the 
laboratories to ensure that our investment in that is made as 
wisely as we can, sir.
    Mr. Langevin. Okay. I see that your research and 
development, test and evaluation budget has been significantly 
increased this year, up to $496 million. Can you describe some 
of the RDT&E [research, development, test and evaluation] 
efforts that you are undertaking?
    Admiral Olson. Yes, sir, I do. These are--some of that is a 
general increase in R&D and science and technology, recognizing 
the Special Operations' peculiar needs for that. But this year 
is a bit of an anomaly. Much of this year's increase in the 
science and technology budget is directly related to an 
efficiency initiative that we made in order to back away from 
one, sort of, ponderous program and invest in a family of 
undersea mobility vehicles. And there is a peculiar requirement 
for science and technology R&D money this year for that.
    Mr. Langevin. Are there any other examples that you could 
cite for us?
    Admiral Olson. Sir, there are many examples. Most of them 
are quite small, but I think one that we are particularly proud 
of now is a solar energy panel project that we have installed 
in a remote village in Afghanistan as part of a very small 
presence of Special Forces in that region and the difficulty of 
getting fossil fuel supplies to that region. And so the success 
of that has been encouraging.
    But there are any number of other projects that, again, are 
quite small, quite limited. No big appetite in the big services 
for what it is we are developing at the time. So our R&D budget 
is actually spread pretty thin across a number of projects.
    Mr. Langevin. Good. I am pleased to hear you mention the 
alternative energy project, in particular. I think that is 
important for a variety of reasons but, in particular, keeping 
our supply lines to a minimum if we don't have to transport 
fossil fuels, obviously, any more than necessary to the front 
lines. And it keeps people safe and keeps us more independent, 
mobile, and effective. So I know that the other services are 
looking at developing those tools, as well.
    Before my time runs out, Admiral, let me just ask--you 
know, one of the most important distinctions with our Special 
Operations Command--our Special Operations community is the 
focus on irregular warfare. At the Naval War College in 
Portsmouth, Rhode Island, we are lucky enough to have the 
Center for Irregular Warfare, which works at educating our 
special operators on the culture and strategic insights into 
the very areas they are being deployed into. And they also host 
a yearly symposium which brings together some of the best 
irregular warfare education across the country.
    Often, however, the educational training can be overlooked, 
especially in a year of budgetary constraints. What is SOCOM 
doing to ensure that special operators receive a high-quality 
training education background that is critical for them to 
remain the high-performance fighting force that we require?
    The Chairman. Admiral, the gentleman's time has expired. 
Could you please give that for the record?
    Admiral Olson. I can get that for the record.
    Mr. Langevin. I would appreciate it.
    And I want to thank you both for your service, gentlemen. 
Thank you.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, General Mattis and Admiral Olson. Thank you for 
being here and for your leadership.
    I have three questions that I am going to try to lump 
together and give to you, in hopes of getting answers to all 
three of them. Two are about Iraq, and one is about 
Afghanistan.
    On Iraq, yesterday I met with some brave government leaders 
from the Iraqi International Visitor Leadership Program that 
represented local government and state--or canton-level 
government. And during their visit, one, they expressed great 
appreciation to the United States and also, then, great concern 
about what will occur as our forces are drawn from Iraq and 
voicing I know the concern that you have of interference that 
might arise from their neighbors, particularly Iran.
    But, in doing so, they also indicated that the Provincial 
Reconstruction Teams [PRTs] that had been deployed throughout 
Iraq made a big impact and were of great assistance in their 
ability to ensure that they could make a transition and remain 
stable. They reported that several of those are closing, and 
they are very concerned about them. They wanted me to raise the 
issue with you gentlemen to see to what extent you see that the 
PRTs may be able to remain and continue to have a role.
    Also yesterday, we had a hearing in the Government Reform 
National Security Subcommittee on the ``U.S. Military Leaving 
Iraq: Is the State Department Ready?'' I would love any 
comments that you have concerning the State Department's 
efforts and the significant amount of contractors that they are 
going to be employing for security forces, some 17,000.
    My question on Afghanistan is I would like for you to 
comment on our efforts to reduce the drug trade.
    In 2006, General James Jones, then the Supreme Allied 
Commander of Europe, stated that, quote, ``The Achilles heel of 
Afghanistan is the narcotics problem. I think the uncontrolled 
rise of the spread of narcotics, the business that it brings 
in, the money that it generates is being used to fund the 
insurgency, the criminal elements, aiming to bring chaos and 
disorder.'' He also says that it funds the corruption in the 
police, the corruption in local governments, corruption at high 
levels of government.
    Now, I would love, gentlemen, to hold up this chart. This 
is a chart of the historical production of opium production in 
Afghanistan. And if you fold the chart, you can see that, 
looking at the years when we first got to Afghanistan, that the 
subsequent years, up through 2009, are almost double what has 
occurred prior.
    When General James Jones made this quote in 2006, the level 
of 2006 is about the same it was in 2009. So, even though we 
say it is being reduced and coming down, it is still at 
astronomical levels and nearly double of our first 2 years in 
Afghanistan. I really think it gets to the heart of our ability 
to turn the circumstances around in Afghanistan.
    And I would love to hear your comments on those issues. 
Thank you, gentlemen.
    General Mattis. Thank you.
    On the PRTs, they have got to come out, sir. This is 
something that we did to help Iraq get back on their feet. They 
have an educated population. They now have a government that 
they voted in. It was a very close election, so it took a while 
to get it set up.
    But these PRTs, as you know, Provincial Reconstruction 
Teams, were there to bring government services during the 
tumultuous period as we fought it out with the enemy. That 
period is pretty much over now. The enemy can still set off an 
explosion anywhere in the country. That is just the kind of 
mentality that they have. But the Iraqi security forces have 
proven themselves capable, I think, to maintain security to a 
point that it is now the responsibility of the Iraqi 
Government.
    Is the State Department ready? Not yet, but I am confident 
they are on the right track. We have one of the finest 
ambassadors we have served with anywhere in Ambassador Jeffrey.
    And I think the 17,000 number, while this is still 
tentative, I believe that number is the total number on the 
ground from Department of State, and the number of contracted 
security personnel will be less than half that. I am--excuse 
me, go ahead, sir.
    Mr. Turner. That was the number that was being used 
yesterday in the hearing. So I am not certain either, but we 
will see if----
    General Mattis. If I could get back to you for the record 
then. I need to also check the numbers and make sure I am 
giving you accurate data here.
    [The information referred to was not available at the time 
of printing.]
    General Mattis. But I think that, right now, the State 
Department and the Defense Department are working very closely 
together. I co-hosted with the Deputy Secretary of State a 
conference here in late January, where we got together with all 
of the right people from the military and from Department of 
State. And we are working right down to what issues still need 
resolution, who is going to be responsible for them. It is on 
the right track, sir. It is going to be difficult, but we are 
on the right track.
    On Afghanistan, I will just tell you that we are making 
progress, significant progress, now that we have taken the 
Helmand River Valley away from the enemy.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    My apologies to Admiral and General for being late. It is 
one of those days. And I may pick up issues that you have 
already covered. If so, you can move quickly through them and 
go from there.
    The first deals with what is presently taking place in the 
Levant--Egypt, Libya, Tunisia. What is our posture there? What 
can we expect? How does it relate to the work that both of you 
gentlemen do?
    I understand the Navy is nearby now, and maybe one or the 
other of you want to take this one on.
    General Mattis. Sir, Libya is not in my region; Egypt is.
    The Secretary has just given orders a few hours ago to 
commence an airlift of Egyptians who have been forced outside 
of Libya into Tunisia to help them get back home again. The 
reason we are doing this is, number one, we can; and, number 
two, I think it is indicative of the continuing close military-
to-military relationship, that we are trusted in that part of 
the world to be the ones that can fly military airlift in, pick 
up refugees, fly them to another country, going past a country 
that is in disarray right now.
    So we are helping where we can on the humanitarian side, 
sir.
    Mr. Garamendi. That would be in the Tunisia and Libya 
situation.
    General Mattis. Correct.
    Mr. Garamendi. Could you speak to the Egyptian situation, 
since that is your turf?
    General Mattis. I can, sir.
    We have maintained close relations with the Egyptian 
military. They have served with honor. They continue to serve 
with honor. I spoke to our Ambassador yesterday. She explained 
to me that the military is carrying out its caretaker role. And 
our relationship with that military strengthens in that role 
that they will turn this over to a civilian, elected 
government. And we still anticipate 6 months. I think it is 
ambitious for any country to go through all that they have to 
go through to meet that timeline, but that is the military's 
commitment.
    I talked to General Anan, the Chief of Defense of Egypt, a 
couple weeks ago. And he assured me that that is their 
intention, to keep the order, to not in any way restrict 
peaceful demonstration, to protect them in fact, and protect 
the process toward a democracy.
    Mr. Garamendi. Apparently, the military-to-military 
relationship has been very beneficial.
    General Mattis. Yes, sir. Absolutely.
    Mr. Garamendi. Okay.
    Admiral, I don't know if you have anything to do with what 
is going on a little further to the west of Egypt. If so, you 
can maybe bring us up to date. If not, we will just let it go.
    Admiral Olson. Sir, from a Special Operations Command 
perspective, I will just say that we have offered the menu of 
capabilities Special Operations can contribute to either turn 
down the heat or respond to a flare-up. And so, the commander 
of CENTCOM, the commander of AFRICOM have those, sir.
    Mr. Garamendi. Ready and willing to go--does that mean--
well, we don't know what that means, do we? That is, the level 
of engagement that might be forthcoming. I will let that one go 
until we get some more information.
    I do have a question about Pakistan. It seems to me that 
while Afghanistan remains our major area or theater of 
operation, Pakistan is becoming increasingly--increased 
concern. Could you brief us on Pakistan and the situation as 
you see it in Pakistan, particularly the destabilization that 
is apparently going on?
    General Mattis. Sir, frankly, I am concerned about 
Pakistan. We have very strong military-to-military links. We 
are working better than ever right now against our common 
enemies up along the border area. My concern with Pakistan is 
more along the lines of financial challenges for the 
government, of the disarray of the civilian government. It is 
more along the governance and economic lines, is my point.
    That is not to say there is not a severe enemy problem 
there. They have killed thousands of Pakistani troops, wounded 
thousands more, and attacked and killed and wounded upwards of 
nearly 30,000 civilians. So it is a concern.
    The Pakistan military is doing well. They have sustained 
for 24 months now an offensive against our enemies that has 
taken a quarter of their Army up into the high country, some of 
the most forbidding and difficult terrain I have ever operated 
in. But, at the same time, I think the problems are much deeper 
and much broader than purely military can solve.
    Mr. Garamendi. And my time is up, but therein lies my basic 
concern. It is the radicalization of Pakistan by all that is 
going on within the country and around it.
    Thank you, Mr. Chairman, for the extra 13 seconds.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Olson, General Mattis, thank you so much for 
joining us today, and thank you for your service to our Nation.
    And, Admiral Olson, a special thanks to you, and the 
distinguished career--wow, what accomplishments. The first Navy 
SEAL to be SOCOM commander, the first Navy SEAL to attain the 
rank of four-star admiral. Thanks again for that distinguished 
service.
    I want to begin with you, Admiral Olson. Looking at where 
we have come with our Special Forces over the years, we know in 
the last 37 years that force has grown significantly. It has 
expanded in its scope, in its expertise. You know, back in the 
1970s, nobody really knew what a Navy SEAL was or a Green Beret 
or a PJ [Pararescue Jumper]. Today they have an expansive range 
of operations, and they have become the weapon of choice in 
this 21st century of asymmetric engagement.
    So I wanted to, kind of, get your perspective on where will 
Special Operations go--Special Forces go in this next century? 
You know, what are the challenges out there that we face? And, 
specifically, how do we make sure that we are doing all we can 
to recruit and train the best and brightest so we, indeed, have 
that force structure, that capability in years to come?
    And, you know, we are in a pretty special time in this 
Nation's history, special in the sense that we have had now 
over 10 years of pretty high ops tempo deployment for our 
Special Forces. How do we make sure that that force is going to 
be structured to meet the challenges into the future?
    Admiral Olson. Thank you, sir. I have a lot of answer to 
that question. I will keep it brief.
    First, our recruiting and training is going very well. We 
are getting people who are smarter, harder, fitter, stronger 
than ever before, and at least as motivated, and I am quite 
satisfied with the quality of the force and the quality of our 
training.
    We need to do more to ensure that we are retaining them for 
as long as we need for them to serve. This is quite specialized 
work. We do invest heavily in their training. And the longer 
that we can keep them with us, the better, even well beyond the 
normal 20-year military retirement point.
    In terms of the employment of Special Operations Forces, it 
is a big, complex world. I think the threat of massive army-
versus-army, uniformed-formations-against-uniformed-formations 
kind of warfare is decreasing, and the probability of, as you 
said, asymmetric, cyber, nontraditional warfare is increasing. 
It is very much Special Operations Command's--within our 
portfolio to be out there around the world turning down the 
global heat. We are in many countries on any given day at the 
invitation of other nations to help provide them local 
capability that contributes to regional stability.
    So, in my way of describing it, we have worked very hard in 
our, sort of, shoot, move, communicate network kind of skills. 
Our investment now is in our understanding, make sure that we 
are in the right places for the right reasons, doing the right 
things, with the ability to properly predict the outcomes.
    Mr. Wittman. General Mattis, I want to ask a little bit 
about what we are facing in Iraq. As you know, we are right at 
the face of more drawdowns. That is quickly approaching. We are 
at 50,000 now, with no agreement past the end of 2011 as far as 
what our manning is going to be there in Iraq.
    The inspector general for DOD pointed out some concerns 
about Iraqi capabilities and ISF [Iraqi Security Forces] 
capabilities going into the future. And they pointed out that, 
with that transition, there might be little time to develop 
logistical systems and industrial capabilities that may leave 
the ISF and Iraqi forces with a lack of readiness in what they 
are going to be facing down the road. And they also noted some 
additional gaps in military training, Special Operations, and 
airspace management.
    Within that context, the question then becomes, how do we 
make sure that those forces are going to be ready? And what are 
our forces doing in making sure that that transition is going 
to be a smooth one and that we don't lose what we have gained 
there? And we want to make sure that the ISF and the Iraqi 
forces are able to maintain what we have worked so hard to 
build there.
    So I want to get your perspective on what challenges we are 
facing with that transition.
    General Mattis. I think you summed up the challenges pretty 
well, sir. The three biggest challenges: logistics, including 
maintenance; intelligence and intelligence fusion and how they 
would use that for their special forces, their security forces, 
to continue an unrelenting attack against the enemies, the 
terrorists who are in the country and still capable of dramatic 
attacks; and, of course, air sovereignty. They will not have an 
air force yet.
    But we are using every day, working with them every day. We 
have specialized training programs for certain units to bring--
if we can't bring everyone up, can we bring up a cadre, certain 
units, up to full capability. That, too, is going to be 
challenging. Candidly, it is going to be very difficult.
    I think there will still be loose ends by December, but, 
absent a request from the Iraqi Government and agreement by the 
U.S. Government to stay longer, we are projected to come out 
with pretty much 99.9 percent of our troops. There may be a 
small office of security cooperation that would try to carry on 
some of the things that you just mentioned.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Mrs. Hanabusa. Thank you very much, Mr. Chairman.
    Thank you, Admiral, for your years of service.
    And thank you, General Mattis, for being here.
    I would like to first begin with General Mattis. You made 
an interesting comment when I was here earlier, and you said 
that though not within, I think, your region, the Israel-
Palestinian situation really affects your ability within what 
you are trying to do. Could you expand that for me? What is it 
about it, and what kind of stability would you like to see?
    General Mattis. Yes, ma'am, I can.
    The extremist elements have seized this issue, and they use 
it for recruiting. So, if Middle East peace can be achieved, a 
two-state solution, which has been proposed by several American 
administrations, embraced by many moderates across the region 
and in the U.N., if this two-state solution can be achieved, 
then what you do is you remove this issue from the extremists.
    I think it is pretty clear to everyone that Iranian leaders 
in Tehran don't care a whit about Palestinian Arabs, but they 
use this issue, and because other extremists use it, it limits 
the ability of some of our friends in the region to come out 
and support us because of the lack of progress on this issue.
    And I think that, in the terms of long-term security for 
Israel and for the Palestinian people to have their rights, we 
are going to have to make progress on the two-state solution.
    Mrs. Hanabusa. General, we all know that there is such a 
strong sense about the relationship that we have with Egypt, 
especially the relationship the military has developed and 
nurtured for 30-some-odd years.
    Do you see the potential for a similar kind of relationship 
developing in any of the other areas, like Lebanon, Yemen, 
Bahrain, any of those areas? Do you see that we can do that or 
duplicate that relationship elsewhere?
    General Mattis. I think we had that relationship in a 
couple of nations in my region, ma'am.
    I would start with Kuwait, where I was with Admiral Olson 
last week for the 20th anniversary of the battle that freed 
that country. I think that there were as many American flags 
flying at times in some parts of the young people out 
celebrating that night before as there were Kuwaiti flags.
    In Bahrain, where we have had our fleet headquarters for 
5th Fleet since the late 1940s, in the midst of all the turmoil 
going on there, as reformers and others peacefully protest by 
and large, there has been no anti-Americanism there. We have a 
very strong relationship.
    We have very quiet and very robust mil-to-mil relationships 
with the United Arab Emirates, with Qatar. I can go on--the 
Kingdom of Saudi Arabia.
    I think you mentioned Iran. I could not imagine it right 
now----
    Mrs. Hanabusa. No, no, I mispronounced ``Bahrain.''
    General Mattis. Oh, okay. Right.
    Mrs. Hanabusa. No, it wasn't Iran, sorry.
    General Mattis. Yes, ma'am.
    But, yes, ma'am, we have very good mil-to-mil 
relationships, and there are more than that. I can go on at 
some length.
    Mrs. Hanabusa. Thank you.
    Admiral, one of the things I am looking at, because this is 
a budget briefing, is I am so accustomed to seeing end strength 
right up front, and I am also accustomed to seeing the concept 
of the OCO [Overseas Contingency Operations] budget versus the 
base budget.
    I was wondering, can you tell me what the figures that I 
have seen--is it $12.8 billion, which seems to be attributed to 
specific programs--what and how does this 2012 budget--what 
does it mean to what you are doing?
    Admiral Olson. Yes, ma'am. The 2012 budget request for 
Special Operations Command is actually $10.5 billion. This is 
about a 7 percent growth over 2011. And it permits us to 
continue the rate of growth that we have been able to absorb. 
The demand is outpacing our ability to grow, continue in this 
relatively good pace of growth. It is essential to us.
    This gives us a force structure of--we are at about 60,000 
people now. Over the course of the next 4 or 5 years, we will 
grow to about 68,000 people total. About a third of those are 
careerists within our force. And about two-thirds are in our 
force for an assignment or two or three over the course of 
their careers.
    In terms of OCO to base, we are, I think, the highest 
percentage user of OCO funds. We are about 36 percent of our 
total budget is in OCO. And, as Secretary Gates testified 
yesterday, that he is making moves to, in fact, transfer our 
entire OCO into our baseline budget over the next few years.
    Mrs. Hanabusa. Thank you very much, Admiral.
    Thank you both.
    The Chairman. Thank you.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman.
    And, Admiral Olson and General Mattis, it really is an 
honor to be here with you today because you two are the epitome 
of the American warrior.
    My question, I think, is pretty simple. As I look across 
what is going on in the world right now--Tunisia, Algeria, 
Libya, Egypt, Bahrain, Lebanon, Somalia, Gaza Strip, Yemen, 
Oman, Pakistan, Syria, Iran--there was one geographical thing 
that each one of those share, and that is the littorals.
    So, as we begin to move to away from this occupation/
nation-building style of warfare, my concern really is, do we 
have the sufficient maritime forces? I know some of these 
countries may not be in your AOR [area of responsibility], but 
I am always concerned about the enemy being able to find the 
gaps and the seams by which he can exploit us.
    Do we really have the maritime forces to be able to have 
the power projection and potentially the forcible-entry 
capability to contend with the rising threats that could come 
out of those nations?
    Thank you.
    General Mattis. Thank you, sir.
    We work the seams very closely, the combatant commanders. 
We speak to each other routinely. Our staffs are in constant 
contact. I get what I ask for.
    The concern you have, I think, is the longer term, and I 
will just say that your instincts are on target. I think I am 
right now commanding an increasingly maritime naval theater. As 
these numbers of troops on the ground come down, we are going 
to have to maintain a very robust naval presence. It is 
welcome, it is reinforcing, it is reassuring, and it tempers 
any mischief by certain people who might want to get meddlesome 
in other people's issues.
    Admiral Olson. So, from a Special Operations perspective, 
we are generally consumers and customers of the larger maritime 
forces. We ride and operate from the ships when it is 
appropriate to do that. And, therefore, we depend on the 
geographic combatant commanders to request and provide those 
ships.
    I will second what General Mattis said, is that generally 
when we are employed the priority is high enough that we will 
get the maritime assets that are required. But that is in the 
theater where we are now; it may not be the same around the 
rest of the world, sir.
    Mr. West. Well, thank you, gentlemen, very much. And, of 
course, being an old soldier, it is very hard for me to 
understand that and admit that that is an important aspect.
    But I yield back to the chairman.
    The Chairman. By ``old soldier,'' he means he served 
several years, when he is talking, compared to an old guy like 
me.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Mattis, first of all, thank you for your 
distinguished service as the U.S. Central Command combatant 
commander.
    You had mentioned in an answer--and I want to clarify 
this--about the Pakistani military that the Pakistani military 
had been--words to the effect that you gave--had been 
conducting combat operations for the last 2 years against our 
enemy. And I need to clarify that.
    Is it that they are conducting combat operations against 
the Pakistani Taliban? Because it is my understanding that the 
Afghan Taliban has sanctuary inside of Pakistan and that they 
are not prosecuting operations against the Afghan Taliban.
    General Mattis. Yes, sir. And they have been conducting the 
operations more than 2 years. It is not against all of those 
that we are up against. There are some they have not gone 
after. They are going after more today. It is in the last 2 
years that they have shifted 140,000 troops and have taken a 
much more aggressive role here. But you are quite correct. 
There are some that they have not engaged.
    Mr. Coffman. Thank you.
    Admiral Olson, I just want to thank you so much for your 
service as the combatant commander for Special Operations 
Command.
    And I think you mentioned that, prospectively, you saw 
that, you know, this--that you saw future combat operations as 
probably not being conventional force-on-force but being of the 
more asymmetric variety that would, in fact, involve Special 
Operations Command.
    And, in fact, the Secretary of Defense gave a recent speech 
at West Point where he talked about his doubts as to whether 
the United States in the future would engage in the kind of 
heavy-footprint operations as we are doing today in Iraq and 
Afghanistan. I think he said words to the effect that we are 
not--he didn't see us as invading, pacifying, and I think 
building countries in the future as we have done recently.
    And, General Mattis, that goes to you. I am concerned that 
maybe we are too ambitious in Afghanistan. I see that we have 
two objectives there in order to meet U.S. security interests. 
I think number one is that we need to not allow the Taliban to 
control the country and that be a permissive environment for 
them in which they could leverage that in hopes of 
destabilizing Pakistan by aiding the Taliban on the other side 
of the Durand Line. And, secondly, the ability to use 
Afghanistan as a platform in which to, quite frankly, seek out 
targets in the tribal--in the FATA in Pakistan.
    But yet, if I look at the current policy, it seems to me 
that we are establishing a governance that I am concerned 
doesn't necessarily reflect the political culture of the 
country but certainly reflects our values, that we are trying 
to restructure Afghan society, and that we are trying to build 
them the economy that they never had. And I refer to the Afghan 
infrastructure fund, certainly, as part of that.
    And I wonder if you can address that, because I am just 
very concerned that we, perhaps, have a policy that is more 
robust than is necessary to meet our security interests.
    General Mattis. Thank you, sir.
    I engaged in the President's policy review, strategy review 
in December. Your question was one of the critical ones that we 
examined there: Are we doing more than we need to do? Again, we 
are there for our reasons, our national security reasons. When 
we didn't pay attention to it, we were attacked. And the FATA 
area, the borderland region there remains the epicenter of 
Osama bin Laden's efforts, obviously.
    So we fall back and say, what do we need to do to deny 
future attacks such as this? And we have very strictly looked 
even down to what are the key districts that we need to be 
focused on. It is not that we are all over the country. We are 
looking in every way, how do we ensure that the ends we 
require, we only commit the means necessary to do that?
    Now, it is not a precise science, and I think you can 
always find points where you might find where this doesn't 
quite seem to coincide. But, basically, fundamentally, we are 
looking at how do we deny the enemy a position from which they 
can attack us in the future.
    Part of this is to ensure that, as we pull out, as we will, 
we leave in our wake something better than we left in 1989. It 
has to be designed with Afghan unique--Afghanistan's unique 
history, culture, geography, economic opportunity all in mind.
    But right now I am confident that what we are doing is 
limited in scope to what needs to be done.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Thank you for being here before this Armed Services 
Committee meeting.
    I had the opportunity last week to participate in a 
congressional delegation trip to Afghanistan and Pakistan. As a 
freshman, I found it to be very eye-opening, very informative. 
I would like to, for the record, before I get to my questions, 
point out a few things that I observed.
    First, I thought that our men and women in uniform, given 
the very challenging circumstances that they faced, were acting 
just as courageously and as professionally as anyone in America 
could hope for them to do. That is a credit to them, and it is 
also a credit to those, like you, who have trained them so that 
they are able to handle the situations that they face.
    Similarly, I was impressed with our Foreign Service 
personnel, who, to a large degree, are responsible for the 
nation-building that we are trying to do in both of those two 
nations.
    Third, in looking at the environment of Afghanistan in 
particular, I was struck by the poverty of the Afghan people. I 
was told that there are roughly 30 million people in 
Afghanistan. In the rural areas, people were living in huts, 
usually without windows. Fifteen percent literacy rate, i.e., 
85 percent could neither read nor write. In the rural areas 
that I was fortunate to observe, there appeared to be no 
electricity. The roads in the rural areas were dirt.
    And that brings me to the Afghan economy. It was quite 
clear that the Afghan economy is nowhere near capable of being 
able to pay for its own defense, either militarily or internal 
security forces, police, or what have you.
    And with that as a backdrop, do you have a judgment as to 
how many years, in your opinion, it might be before the Afghan 
economy is strong enough for them to pay for their own internal 
security forces?
    General Mattis. Sir, I would have to give you an estimate.
    Mr. Brooks. I understand it would be an estimate. Please 
do.
    General Mattis. I would say it would be at least 10 years. 
And it will require international support throughout that 10-
year period and perhaps longer.
    Mr. Brooks. Yeah, I was informed by some of the folks that 
we met with that it would be in that neighborhood, perhaps even 
as long as 15 or 20 years, which means it is basically going to 
be a long time. We hope for the best, but we have to be 
prepared for the worst.
    With that as a backdrop, do you have any judgment as to how 
much America is going to have to pay over that next 10-year 
period of time out of our own Treasury to be able to pay for 
the cost of the Afghan security forces, the police, their 
military, or what have you?
    General Mattis. Sir, as we fight this enemy and as 
governance picks up in areas that were once held by the 
Taliban, there are economic opportunities--agricultural 
extraction, mineral extraction--there are opportunities for 
people there.
    I think we will see a combination of the number of security 
forces needed dropping slightly as the enemy threat drops. And 
I think that right now we have 49 nations engaged there, and as 
some start coming out, our Foreign Service officers, who 
impressed you, as they have impressed me, will have to work 
with the foreign countries to make sure that, as they pull 
their troops out, they maintain the kind of fiscal support that 
the international community has to give to a nation that, with 
30 years of warfare and hundreds of billions of dollars of 
damage to that country over those decades, simply it is going 
to take an international commitment to get them back on their 
feet. And I am very confident it cannot be the United States 
alone.
    Mr. Brooks. Well, do you have any judgment as to how much 
would be the United States share?
    General Mattis. I do not, sir. If it is just for the 
security forces, it will cost us $12.8 billion this next year. 
That number will come down. I see that as a surge right now of 
their forces. And, at some point, once the enemy is beaten 
down, then they won't need that size of a force. So that amount 
should come down, too, as the enemy threat recedes somewhat.
    But it is going to be a significant amount, I think is 
where I would agree with you. It is going to take an 
international effort, not America alone.
    Mr. Brooks. Thank you for your insight.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General Mattis, Admiral Olson, thank you very much for 
your service. I was fortunate enough to be on the congressional 
delegation with Congressman Brooks. And I want to join with him 
in commending the servicemembers we met. General Austin gave us 
an excellent briefing, General Petraeus of course, there in 
Baghdad and in Kabul. We also had the opportunity to visit the 
sailors of the USS Lake Champlain in Bahrain. And it was just 
so encouraging to me to see our quality troops.
    Also, I was encouraged because my former National Guard 
unit, the 218th Brigade of the South Carolina National Guard, 
had been there in 2007, 2008, training the Afghan National 
Security Forces. The progress that I saw of the personnel, the 
Afghan forces--and I know that the extraordinary defense 
minister, Abdul Wardak, has indicated that he wanted those 
forces to be increased, possibly to 378,000.
    And so, General, do we have the capability to partner with 
a force that size with the current personnel we have?
    General Mattis. If the President makes the decision to 
support President Karzai's effort to grow the force, as 
Minister Wardak told you, yes, we have the capability to do so 
with the forces that we have there.
    Mr. Wilson. And, in fact, I gave a floor speech Tuesday, or 
Monday, where I indicated that I have supported the President's 
surge by sending 30,000 troops. That has actually encouraged 
Afghanis to have faith in their future. And now an additional 
70,000 Afghan security forces.
    Admiral Olson, on behalf of the Military Personnel 
Subcommittee, in your written testimony, you discussed the 
establishment of a pressure-on-the-force task force to survey 
and analyze the effects of repetitive combat deployment over 
nearly a decade. And I want to thank you for doing that.
    Particularly, though, I am concerned that there has been a 
higher percentage of officers leaving at the 8- to 10-year 
mark. Can you provide detail of what this task force will do? 
And in the coming months, would you share the results with the 
committee?
    Admiral Olson. Yes, sir.
    The pressure-on-the-force task force is designed to get at 
what the data doesn't really present. Responses generally lag 
data; data lags reality. We are really trying to be predictive 
and preventive in our approach. And to do that, we have to be 
able to trust commanders' intuition, teammates' sense of what 
is happening in the team room, families, children, as they 
sense our force. And so we are really on a survey mission to 
understand the plethora of factors that do affect the overall 
health of our force.
    I do expect that report in about 90 days, and I do--I would 
certainly be willing to share it.
    Mr. Wilson. Thank you very much.
    And, General Mattis, when we go, we go to encourage the 
troops, but we do fact-finding. On my last visit there prior to 
this, I was so impressed by the different teams that were 
performing route clearance, how brave they were. And I am 
really grateful to see the advances in technology, with the 
Mine Roller Program.
    What is the level of providing those so that we can face 
the improvised explosive devices [IEDs]?
    General Mattis. Sir, the mine rollers work in most of the 
terrain where they can be employed on roads with the vehicles 
that carry the mine roller, that can use the mine rollers. As 
you know, not all vehicles can, because they are a very, very 
heavy piece of gear.
    Ultimately, Mr. Wilson, what we are going to have to do is, 
this country is going to have find a way to prematurely 
detonate IEDs. Right now, attacking the network, we are either 
finding, or the people are turning in to us, about 70 percent 
of the IEDs that we run into. But about 30 percent are still 
going off against us. And it is the primary casualty-inducing 
weapon the enemy has.
    So this is a significant effort that we have under way to 
try and look at not just mine rollers but the entire scope of 
the problem, sir.
    Mr. Wilson. Well, I want to thank you on behalf of my 
constituents. And I have had two sons serve in Iraq, and I want 
to thank you for your leadership in truly protecting our 
troops.
    I yield the balance of my time.
    The Chairman. Thank you.
    My turn.
    Admiral Olson, as you noted in your opening statement, this 
is your fourth and final appearance in this capacity before 
this committee, in all likelihood. I want to thank you again 
for your years of service to the Nation.
    And I would like to ask you, for a moment, to take the long 
view, for the benefit of the committee and the record, and 
outline for us some of the future challenges that you see 
facing the force. I know, as we visited last week, I believe it 
was, or week before, I know you put a great deal of thought 
into this issue.
    In your opinion, what does the future hold for SOF, and 
what will the force look like? What challenges do you see, and 
what should Congress be concerned with?
    Admiral Olson. Thank you, sir.
    I think the future requirements for Special Operations 
Command will be in smaller teams, in more places, at the 
invitation, at the request of host governments who believe that 
highly skilled teams with a relatively small footprint are of 
great value in their regions.
    This does require a different kind of training program for 
us, it requires a different kind of education program for us, 
depending very heavily on the services, but understanding that 
we have to tailor some of that to our own requirements.
    It also requires a different kind of career management. It 
has to, as I said in my opening statement, recognize some of 
the nontraditional skill sets, those that are not necessarily 
platform-oriented but more knowledge- and experience-oriented, 
as essential military skills can incentivize people to gain and 
move within paths that reward them for having done that.
    I think that the force mix will remain relatively unchanged 
in terms of the balance across our force. I believe that our 
platform requirements as we have them programmed are relatively 
sufficient for our future needs.
    We will continue to require the ability to move in a way 
that is quite traditional, quite obvious in our movements, and 
we also need to be able to retain the capability to move in a 
clandestine manner when that is necessary. And I think Special 
Operations Forces are unarguably the force of choice for any 
kind of clandestine activity where that might be required in 
the future.
    The Chairman. Thank you very much.
    General Mattis, the LA Times reported that the President of 
Yemen, Ali Saleh, has agreed to a plan from opposition leaders 
that includes a demand that he step down by the end of the 
year. Can you comment at all on the accuracy of this report?
    General Mattis. I cannot right now, sir. I have seen the 
newspaper article, but I have not seen anything more than that. 
So I would prefer to learn a little more before I comment, sir.
    The Chairman. We all need to learn that skill.
    Thank you very much, both of you, for your service, and all 
of those sitting behind you there that work with you every day. 
I wanted to talk to them and see how they--do they have special 
training for poker faces? I think they--I watched. They don't 
give a thing away. And that is a great skill.
    Thank you all for your service. Appreciate it very much.
    And this hearing now stands adjourned.
    [Whereupon, at 3:20 p.m., the committee was 
adjourned.]<greek-l>Note: there are no scans .072 and .073, due 
to error in scanning deg.
      
=======================================================================

                            A P P E N D I X

                             March 3, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2011

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2011

=======================================================================
      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. In 2004, SOCOM chose the SCAR as its new individual 
carbine from among nine vendors and a dozen submissions. Over the 
following six years, SOCOM shepherded the SCAR program through 
continued RDT&E while the awardee invested $30M of its own capital in 
continuing to develop the program. Last summer SOCOM awarded full rate 
production.
    Given that the SCAR meets the established requirement, why isn't 
SOCOM procuring the SCAR family of weapons in the quantities it 
originally intended and what has led to these delays in the acquisition 
of the system--were there mistakes in the acquisition process or is it 
a budget issue?
    Admiral Olson. Following extensive testing and in-theater Combat 
User Assessments, USSOCOM decided to pursue full fielding of the MK17 
(7.62mm) rifle, the MK13 (40mm) grenade launcher, and the MK20 (7.62mm) 
Sniper Support Rifle variants. The vendor also developed a Common Upper 
Receiver (CUR) kit that will allow the MK17 to fire 5.56mm ammunition 
by changing out several components of the base rifle. This allows SOF 
operators to fire multiple calibers of ammunition from the same base 
weapon; an original objective requirement of this program. USSOCOM 
began procurement of the CUR kit beginning this FY. The stand-alone 
MK16 (5.56mm) rifle did not provide enough of a performance advantage 
over the service-common M4A1 (5.56mm) rifle to be considered a SOF-
unique capability. The total required quantity of weapons was adjusted 
based on the results of the Combat User Assessments.
    Mr. Wilson. If a lack of funding contributed to SOCOM's decision to 
not procure the SCAR at the original intended quantities, at what point 
did SOCOM know that it would not have the necessary funding to procure 
this weapon system?
    Admiral Olson. Lack of funding did not contribute to USSOCOM's 
decision.
    Mr. Wilson. SOCOM competed a new carbine in order to field a weapon 
that allows our Special Operators to more effectively engage a target 
at greater distances. Have there been significant changes, over the 
last several years, in the way we are engaging the enemy that would 
cause SOCOM to revert back to their status quo capability?
    Admiral Olson. The MK17 rifle provides SOF operators the capability 
to engage enemy targets at greater distances than the M4 rifle or MK16 
rifles.
    Mr. Wilson. Did SOCOM, at any time, reprogram money from the SCAR 
program? If so, was Congress informed in a timely manner and what 
effect has that action had on your budget for the SCAR since the 
reprogramming action?
    Admiral Olson. Yes, $26M of SCAR procurement funds were 
reprogrammed from the SCAR program and put towards higher command 
priorities. Yes, Congress was notified in a timely manner. The 
reprogramming did not negatively affect the SCAR budget due to the 
elimination of the MK16 procurement.
    Mr. Wilson. What is the total amount of Major Force Program (MFP)-
11 dollars does SOCOM spend from its own funding in order to make the 
Army-provided M4 SOF specific? How does this amount of MFP-11 dollars 
compare to the total cost of a SCAR?
    Admiral Olson. NAVSOC and AFSOC procure and sustain the M4A1 from 
the Army using Navy and Air Force MFP-2 dollars. USSOCOM does not 
procure or sustain the M4A1 with MFP-11 dollars.
    Mr. Wilson. Did SOCOM conduct a total life-cycle cost comparison 
between the M4 and SCAR before making its decision to not procure the 
SCAR at the original intended quantities?
    Admiral Olson. No. USSOCOM decided not to procure the MK16 based on 
the decision that it did not provide a SOF-unique capability over the 
Service-common M4 and that more appropriate uses for MFP-11 funds 
existed within the command's priorities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SUTTON
    Ms. Sutton. Recent developments in Northern Africa and the Middle 
East over the last few weeks have prompted significant discussion of 
our foreign policy objectives, as well as the importance of seeking 
stability in the region. At this particularly volatile time there also 
remains significant concern about Iran's nuclear progress.
    How do you assess the internal stability of the Iranian regime in 
light of recent political change and uncertainty in Tunisia, Egypt, and 
elsewhere? Do you believe this has had any impact on the likely time 
frame for when Iran could obtain a nuclear weapon?
    General Mattis. We do not assess that the larger Middle East unrest 
has significantly increased the threat to Iranian regime stability. 
Iranian public discontent, however, remains and rifts persist among the 
regime elite, as highlighted by a recent dispute between Supreme Leader 
Khamenei and President Ahmadi-Nejad over the firing of the Minister of 
Intelligence. Since February 2011, the regime has effectively 
eliminated opposition activity and placed its symbolic leaders, Mir-
Hosein Musavi and Mehdi Karrubi, on indefinite house arrest. The 
Supreme Leader remains firmly in charge of Iran's nuclear portfolio, 
and Iran's nuclear program has not been impacted by internal stability 
concerns.
    Ms. Sutton. Our operations in Afghanistan certainly require 
significant logistical support to succeed, and we've had to rely 
heavily on Pakistan for much of this support. One aspect of sustaining 
this support is an alternative in the form of a Northern Distribution 
Network for transporting non-military goods to Afghanistan.What needs 
to be done to ensure the safety and viability of this network? What 
progress has been made so far and what issues your foresee for the 
future?
    General Mattis. The Northern Distribution Network (NDN) supports 
the movement of military cargo via commercial shipments on standard 
shipping routes. The cargo is containerized and looks like all other 
commercial cargo moving along the same shipping routes which greatly 
contributes to the safety and viability of the network. Over 43,000 
containers have transited the NDN en route to Afghanistan with no 
reported pilferage or attacks. Global commercial carriers, under 
contract with U.S. Transportation Command, provide the Department a 
commercial channel to ensure reliable and repeatable deliveries. The 
NDN is a sound alternative to other distribution routes.
    Ms. Sutton. You discussed in your prepared statement SOCOM's 
utilization of female Cultural Support Teams, as well as the importance 
of the special operations forces (SOF) working with indigenous groups 
and the local population to accomplish their mission. As you note, this 
is demanding, high-risk, and valuable work that helps our military 
achieve their goals. As you know there are currently military 
occupational specialties open to women in the general purpose forces, 
such as aviation, that are not open to women in special operations 
forces. Apart from the female Cultural Support Teams, how do you see 
the roles and opportunities for women evolving in a special operations 
capacity? As other parts of the force reexamine the role of women in 
combat, what can you share about similar efforts in SOCOM?
    Admiral Olson. USSOCOM views the roles and opportunities for women 
in a special operations capacity to continue to follow established 
Department policies. Women will continue to perform a supporting role 
to units whose primary mission is to engage in direct combat on the 
ground. Women may be attached to these units, but not assigned, in 
order to perform Combat Support and Combat Service Support missions. At 
this time, USSOCOM is not reexamining the role of women in combat.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Are you seeing any impacts of the CR on the 
battlefield?
    Admiral Olson. There was minimal impact of the CR. The department 
was very supportive and provided adequate CR authority to support SOF 
deployed operations.
    Mr. Turner. Are you concerned about the Department's plans to 
reduce end strength? If so, please share those concerns.
    Admiral Olson. In order to maintain SOCOM's unique mission 
capabilities, the Command must have access to the Services for the 
brightest and most talented service members within the Department. 
Essentially, the men and women within the Army, Navy, USMC, and Air 
Force are SOCOM's recruiting pool. End strength reductions potentially 
affect the availability of future SOF Operators. Additionally, the 
Command monitors Service capabilities that assist in making SOCOM 
successful via regular SOCOM-to-Service talks. Force structure and end 
strength reductions are always addressed within the context of impact 
to the Department and the wider national defense enterprise.
    SOCOM is directly dependent upon the Services to provide support to 
SOF forces. The level of support required is reflected in the Service 
levels which directly affect SOF mission capability and critical skill 
requirements (high demand/low density) that are not organic to SOCOM. 
Foremost within among all Service capabilities is their ability to 
Support and Sustain SOF (CONUS and OCONUS).
    Mr. Turner. In 2006 General James Jones (then the Supreme Allied 
Commander of Europe) stated that ``the Achilles' heel of Afghanistan is 
the narcotics problem. I think the uncontrolled rise of the spread of 
narcotics, the business that it brings in, the money that it generates 
is being used to fund the insurgency, the criminal elements, anything 
to bring chaos and disorder.'' He further emphasized that the narcotics 
trade ``funds the corruption in the police, the corruption in the local 
governments, corruption at high levels of government. And it actually 
is so pervasive that it's preventing the legitimate economy of 
Afghanistan from developing apace.''
    Last year UNODC (The United Nations Office of Drugs and Crime) 
published a study showing that opium production has rapidly increased 
over the past five years. If you follow General Jones' reasoning, this 
would indicate that the enemy's funds are growing. What actions are we 
taking to reduce the opium production? Has it been successful?
    Admiral Olson. This is an issue that should be answered by the 
Combatant Commander, General Mattis, as he has the responsibility for 
this area of interest by the committee.
    Mr. Turner. Has the new Government of Iraq given any indication 
that it is interested in retaining a U.S. troop presence beyond 2011? 
If so, how many troops are we talking about and what functions would 
they undertake? If not, do you envision any sort of additional formal 
defense commitments between the United States and Iraq to provide 
protection for Iraq from external threats until they have such a 
capability?
    Admiral Olson. This is an issue that should be answered by the 
Combatant Commander, General Mattis, as he has the responsibility for 
this area of interest by the committee.
    Mr. Turner. What conditions will you consider, in July 2011, to 
determine the extent of a U.S. troop drawdown? When do you expect to 
reach the next ``decision point,'' after July 2011, about possible 
further reductions in U.S. troop commitments?
    Admiral Olson. This is an issue that should be answered by the 
Combatant Commander, General Mattis, as he has the responsibility for 
this area of interest by the committee.
    Mr. Turner. What can be done to enhance the Northern Distribution 
Network?
    Admiral Olson. This is an issue that should be answered by both of 
the Combatant Commanders, General Mattis and ADM Stavridis, as they 
have shared responsibility for this area of interest by the committee.
    Mr. Turner. How do you assess the threat of Iranian supported 
extremism and terrorist organizations to U.S. interests and allies in 
the region?
    Admiral Olson. This is an issue that should be answered by the 
Combatant Commander, General Mattis, as he has the responsibility for 
this area of interest by the committee.
    Mr. Turner. Are you seeing any impacts of the CR on the 
battlefield?
    General Mattis. Yes, the CR had some impact on support activities, 
but did not affect the performance of combat units. To limit the CR's 
impact on our mission, we relied in some cases on incremental funding 
for our annual contracts. We also developed plans to address potential 
funding shortfalls absent CR extension or budget approval.
    Mr. Turner. Are you concerned about the Department's plans to 
reduce end strength? If so, please share those concerns.
    General Mattis. No. CENTCOM is prepared to successfully operate 
with reduced military end strength.
    From the warfighter's perspective, it will be critical to 
transition seasoned active-duty military members into the Ready Reserve 
as end strength numbers are reduced. The Reserve and Guard provide an 
immediate surge capability and are combat multipliers that serve as a 
critical component of our all-volunteer force. The Services need 
continued support to retain this talent through benefits, incentives 
and appropriate Selected Reserve numbers in order to create sufficient 
dwell time between deployments. Reserve forces provide the ``reach-
back'' capability necessary as our sight-picture evolves and as 
foreseen and unforeseen national-security scenarios emerge.
    Mr. Turner. In 2006 General James Jones (then the Supreme Allied 
Commander of Europe) stated that ``the Achilles' heel of Afghanistan is 
the narcotics problem. I think the uncontrolled rise of the spread of 
narcotics, the business that it brings in, the money that it generates 
is being used to fund the insurgency, the criminal elements, anything 
to bring chaos and disorder.'' He further emphasized that the narcotics 
trade ``funds the corruption in the police, the corruption in the local 
governments, corruption at high levels of government. And it actually 
is so pervasive that it's preventing the legitimate economy of 
Afghanistan from developing apace.''
    Last year UNODC (The United Nations Office of Drugs and Crime) 
published a study showing that opium production has rapidly increased 
over the past five years. If you follow General Jones' reasoning, this 
would indicate that the enemy's funds are growing. What actions are we 
taking to reduce the opium production? Has it been successful?
    General Mattis. The U.S. Government and other international 
partners, including the Afghans, are reducing poppy cultivation and 
opium production in Afghanistan. UNODC's Afghanistan opium survey 
reported poppy cultivation of 123,000 hectares in 2010, representing a 
significant reduction from the recorded high of 193,000 hectares in 
2007. Moreover, UNODC's April 2011 winter poppy assessment anticipates 
another small decrease in 2011 opium production.
    Our interagency counternarcotics strategy supports a comprehensive 
set of actions to reduce opium production. In 2010, a pre-planting 
public information campaign was executed which targeted 44 provincial 
conferences and district jirgas in an effort to dissuade farmers from 
growing poppy in favor of licit crops. In concert with the public 
information campaign, the Good Performers Initiative awarded a total of 
$25.7M to provinces that achieved poppy free status, reduced poppy 
cultivation by 10 percent or more, and/or demonstrated exemplary 
counternarcotics progress. Complementary efforts in law enforcement and 
justice reform have proven equally important in reducing opium 
production. DoD supports capacity building within the Counternarcotics 
Police-Afghanistan and specialized units such as the DEA-sponsored 
National Interdiction and Special Investigative Units. The Afghan 
Counternarcotics Tribunal and Criminal Justice Task Force are also in 
place to detain and prosecute offenders. Finally, USAID is heavily 
invested in activities that promote crop substitution and create viable 
markets for economic growth.
    Mr. Turner. Has the new Government of Iraq given any indication 
that it is interested in retaining a U.S. troop presence beyond 2011? 
If so, how many troops are we talking about and what functions would 
they undertake? If not, do you envision any sort of additional formal 
defense commitments between the United States and Iraq to provide 
protection for Iraq from external threats until they have such a 
capability?
    General Mattis. The Government of Iraq has not requested a U.S. 
troop presence beyond 2011. U.S. Forces in Iraq operate under two 
approved diplomatic agreements. The first agreement is a Security 
Agreement which dictates that all U.S. forces will be removed from Iraq 
by December 31, 2011. The second agreement is a Strategic Framework 
Agreement (SFA). This second agreement describes in broad terms the 
longer term strategic relationship between our two countries concerning 
security assistance and security cooperation. In addition to setting 
the stage for our enduring partnership, the SFA describes how we intend 
to normalize our relationship with Iraq with strong economic, cultural, 
and diplomatic ties.
    Mr. Turner. What conditions will you consider, in July 2011, to 
determine the extent of a U.S. troop drawdown? When do you expect to 
reach the next ``decision point,'' after July 2011, about possible 
further reductions in U.S. troop commitments?
    General Mattis. The conditions-based troop drawdown will be closely 
linked to the capacity of Afghan National Security Forces (ANSF) to 
assume the lead for security tasks with less assistance from 
International Security Assistance Forces (ISAF). The President will 
decide the extent of the July 2011 troop drawdown based on 
recommendations from his military chain-of-command, including the 
Secretary of Defense, Chairman of the Joint Chiefs of Staff, myself, 
and GEN Petraeus. As always, I will continue to provide my best 
professional military advice regarding possible further reductions.
    Mr. Turner. What can be done to enhance the Northern Distribution 
Network?
    General Mattis. Enhancing the Northern Distribution Network (NDN) 
requires increased host nation permissions for bi-directional ground 
transportation of unqualified cargo to include wheeled armored 
vehicles. Additionally, improvement of key en route infrastructure 
would also bolster the NDN. This endeavor requires interagency support 
to work directly with the host nation governments. The State Department 
conducts the majority of negotiations with host nations on behalf of 
CENTCOM and U.S. Transportation Command, and we are actively working 
with them.
    Mr. Turner. How do you assess the threat of Iranian supported 
extremism and terrorist organizations to U.S. interests and allies in 
the region?
    General Mattis. Within the United States Central Command Area of 
Responsibility, threatening activity from Iranian-backed proxies is 
prevalent and increasing. Iran is exploiting vacuums and relationships 
in Iraq, Afghanistan, Syria, Lebanon, Gaza, Egypt, Bahrain, and other 
Gulf states.
    These threats are enduring and will persist after the anticipated 
draw-down of U.S. forces in both Iraq and Afghanistan. There is a high 
potential for miscalculation and provocations with Iran as our forces 
operate throughout the Central Command region.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. To accommodate this growth in demand and address 
ongoing concerns with Pakistani supply lines, U.S. planners opened the 
Northern Distribution Network (NDN), a commercially based logistical 
corridor connecting Baltic and Black Sea ports with Afghanistan via 
Russia, Central Asia, and the Caucasus. The U.S. Transportation Command 
reports that about one-half of the non-lethal surface shipments to 
Afghanistan are being transported via the NDN. The importance of this 
route was illustrated in October 2010 when Pakistan closed a key border 
crossing into Afghanistan. The NDN South, beginning in Turkey or the 
European Union and moving on to the Georgian Black Sea port of Poti. 
Those supplies are then transported by rail to Baku, Azerbaijan, and 
across the Caspian Sea to the Kazakh ports of Atyrau and Aktau. Cargo 
then moves on to Uzbekistan and finally Afghanistan. The overall view 
among Georgian and Azerbaijani decision makers is that the Caucasus 
supply route is of mutual benefit to the United States, NATO, and the 
two national governments:
    What can be done to enhance the Northern Distribution Network, 
specifically the Caucus supply route?
    Does a Caucus centric supply route pose less risk and potential for 
greater efficiency?
    General Mattis. The Caucasus route, which requires the cooperation 
of Uzbekistan, Kazakhstan, Azerbaijan, Georgia, and Turkey (or 
bypassing Turkey via the port of Poti, Georgia) poses a challenge 
because of individual state restrictions--which vary from country to 
country. The most significant restriction affects cargo including 
vehicles that appear to be for military use. Successful State 
Department engagements aimed at expanding commodity types and bi-
directional transits would significantly enhance the Caucasus supply 
route. The risk associated with the Caucasus route is similar to the 
excellent safety record demonstrated across other Northern Distribution 
Routes (NDN) routes.
    Mr. Shuster. Allies and partners in the Middle East have shown a 
strong interest in acquiring missile defense assets and cooperating 
with the United States. CENTCOM conducts an annual ballistic missile 
defense exercise and the Missile Defense Agency is in discussions with 
Bahrain, Kuwait, Qatar, and Saudi Arabia regarding missile defense 
cooperation. Patriot air and missile defense batteries and Aegis 
Ballistic Missile Defense (BMD) ships with Standard missile (SM)-3 
Block IA interceptors currently deploy to the CENTCOM AOR to support 
the command's missile defense requirements.
    Please discuss CENTCOM's missile defense requirements; are they 
being met? What are your most significant missile defense capability 
gaps or shortfalls?
    Discuss opportunities and challenges for missile defense 
cooperation and integration in the Middle East and what specific 
countries you feel would most adequately benefit from FMS sales of 
missile defense capabilities, specifically Patriot Missile systems.
    General Mattis. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. General Mattis, what is your current assessment of the 
threat posed by Al Qaeda to the United States? Are they respected as a 
legitimate regional group? Do you see support for Al Qaeda growing in 
the Middle East? Are violent extremist organizations growing in the 
CENTCOM region? How many Al Qaeda members are left in CENTCOM's AOR? 
How is Al Qaeda marginalized by the uprisings occurring throughout the 
Middle East?
    General Mattis. Estimates on the number of Al Qaeda (AQ) members 
vary widely. We believe 50-100 AQ members are in Afghanistan, with 
approximately 100 currently operating in Pakistan. AQ affiliates in 
Iraq and Yemen have several hundred members respectively. While AQ 
remains a significant threat to our national security, it is suffering 
through its most challenging period since late 2001. Al Qaeda has 
experienced considerable setbacks over the past three years, having 
lost numerous leaders, facilitators, and operatives in Afghanistan, 
Pakistan, Iraq, and other areas in the Middle East. AQ is generally not 
recognized as legitimate, and its violent extremism is unfavorably 
viewed by the majority of people living in the region. In fact, it has 
only limited support from a very small minority of Muslims, and polling 
data suggests support for al Qaeda's ideology has been declining since 
2003.
    Many extremists and militants, including AQ leaders, were surprised 
by the Middle East/North Africa uprisings. These uprisings are contrary 
to what AQ desired, and we assess the group's leadership is struggling 
to make sense of them and react appropriately. We anticipate, however, 
that AQ leaders will attempt to frame these uprisings within their own 
skewed religious context and possibly claim AQ's revolutionary 
invective was the real catalyst for Middle East unrest.
    Mr. Coffman. General Mattis, last year the Congress passed a 
requirement for a national military strategy to counter Iran as part of 
the National Defense Authorization Act. How is that plan progressing? 
Does Iran remain your single biggest concern in the region?
    General Mattis. Iran is my most pressing concern and Iran's nuclear 
weapons ambitions and arming of proxy fighters represent the greatest 
long-term challenges in the Middle East. We are keenly aware of these 
destabilizing efforts and are working assertively to build regional 
security and counter Iranian influence. The Gulf Cooperation Council is 
also taking significant steps towards building a regional security 
approach to counter Iran.
    Like all Combatant Commands, CENTCOM is conducting prudent military 
planning to address the threats defined by the Secretary of Defense in 
the Guidance for the Employment of Forces. We update the Secretary of 
Defense regularly, and on our planning continues to mature based on our 
evolving assessment of the threat.
    Mr. Coffman. There is clearly unrest throughout the Middle East. 
There have been numerous instances where a people have chosen to rise 
up and assert their right to the governance they choose. While this may 
be good in some sense, it can result in an unstable and uncertain 
security environment within the region and for U.S. citizens abroad. 
General Mattis--can you discuss the potential advantages you see an 
amphibious force bringing to an environment like this? How do you see 
these forces being used to prevent conflict and respond to crises? 
Admiral Olson--what are your thoughts on how SOCOM would work from the 
sea to contribute to our interests in this environment?
    General Mattis. The ongoing unrest throughout the Middle East 
presents unique challenges and opportunities for our command. The 
advantages of using an amphibious force are clear. They deliver a sea-
based air ground taskforce capable of rapid and self-sustaining 
operations and provide operational flexibility across our region. Their 
ability to adapt to changing conditions while in support of these 
missions is without a suitable substitute and key to their 
effectiveness.
    Mr. Coffman. Recently the Center for Strategic and International 
Studies (CSIS) put out a study titled ``Tough Choices--Sustaining 
Amphibious Capabilities' Contributions to Strategic Shaping''. ``It 
represents an in depth examination of how U.S. amphibious capabilities 
contribute to strategic shaping activities . . .'' The major findings 
of the report include:
        a.  Amphibious capabilities--the ships, aircraft, 
        ``connectors'', ground vehicles, and forces that enable and 
        conduct sea-based operations on land--make substantial 
        contributions to strategic shaping activities.
        b.  The breadth, mobility, persistence, and responsiveness of 
        these capabilities are highly relevant to the conduct of 
        strategic shaping activities and suggests that if those 
        capabilities were cut, most alternatives would likely involve 
        higher operational risk and/or higher costs.
        c.  The operational risk of alternative approaches are highest 
        for regional assurance and deterrence missions in general, and 
        for the full range of strategic shaping activities in Asia, 
        Africa, and the Middle East in particular.
        d.  If those risks are deemed acceptable and/or are mitigated 
        in some way the alternative approaches are likely to involve, 
        some and likely substantial, additional cost. These costs 
        should be decremented from any cost savings expected to be 
        realized from any reductions to amphibious capabilities.
    Please share your perspective on these findings and how they apply 
to your responsibilities particularly in the prevention of conflict.
    General Mattis. These findings are an excellent highlight of a 
strategic imperative to maintain our full range of core military 
capabilities, including a fully-capable amphibious force to respond in 
any part of the world. Amphibious capability has long been a valuable 
component of our strategic deterrence message; one our potential foes 
understand well. It is the backbone of our strategic shaping activity. 
These capabilities also allow us to conduct bilateral training and 
exercise events with our regional partners to further increase their 
own capabilities. These combined activities support the security 
assistance and cooperation requirements in the region.
    Mr. Coffman. The United States has invested an incredible amount of 
blood and treasure in bringing stability to Iraq. On the cusp of peace 
in that nation, it seems we are more focused on the withdrawal of our 
forces rather than safeguarding our investment there. Other nations 
such as Turkey and Iran are greatly expanding their influence within 
Iraq, but they did not make commensurate investments in the security of 
Iraq; they are merely exploiting the stability our efforts have 
brought. What do you see as the optimal military footprint to remain in 
Iraq to support Iraqi Security Forces and maintain U.S. influence in 
Iraq? Please describe this military force in terms of numbers and 
capabilities.
    General Mattis. As we continue to shift to a State Department-led 
partnership with Iraq, we are drawing down our forces by the end of the 
year unless Iraqi leadership asks us to stay and President Obama 
directs. We remain committed to sustaining our strong military-to-
military relationship with Iraqi Security Forces (ISF) through the 
establishment of our Office of Security Cooperation-Iraq (OSC-I).
    OSC-I is intended to continue security assistance and security 
cooperation missions, and will be critical to creating a normal mil-to-
mil relationship for the years ahead. With 157 permanent personnel and 
763 trainers, OSC-I will leverage the service components, key senior 
leader relationships, and our unique Information Operations capacity to 
support interagency operations.
    I believe ISF will be capable of handling most of the required 
security tasks beyond 2011, to include sustaining significant pressure 
on Al Qaeda in Iraq. At this time, however, Shia Extremist Groups are 
not currently under the same degree of restraint as Al Qaeda in Iraq.
    Beyond 2011, any U.S. military presence in Iraq (in addition to the 
planned OSC-I) would be designed to address identified Iraqi capability 
gaps in the near- to medium-term. In concert with United States Forces-
Iraq, CENTCOM is conducting prudent mission and risk analysis for 
extending the U.S. military footprint, if invited by the Government of 
Iraq and approved by the U.S. government. Specific force numbers will 
depend on the specific mission sets(s) to be conducted, which in turn 
depend on pending U.S. policy decisions.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. What is the command and control role of JSTARS in 
Afghanistan? Is it under-utilized?
    General Mattis. The JSTARS has no formal command and control role 
in Afghanistan; however, its inherent command and control capability is 
a key enabler of the Theater Air Control System within the CENTCOM Area 
of Responsibility. Consequently, crews flying missions in support of 
CENTCOM accomplish command and control/battle management tasks on a 
moment's notice. Moreover, JSTARS crews regularly assist other elements 
of the Theater Air Control System when Joint and Combined missions are 
conducted. JSTARS is extremely valuable and fully utilized in support 
of CENTCOM's missions.
    Mr. Scott. As you assess your ISR requirements and the various 
systems available to you to fulfill these requirements, how critical is 
Joint Stars? Specifically, could you perform the wide area surveillance 
mission without it?
    General Mattis. CENTCOM could not adequately provide wide-area 
surveillance without Joint Star's (JSTARS) capability. The border 
regions between Iran and Iraq, the Gulf Coast of Iran, and Afghanistan 
and Pakistan require near-continuous collection that cannot be 
sustained via space-based systems and other airborne capabilities. 
JSTARS provides a unique capability for which there is no suitable 
alternative.
    Mr. Scott. If more JSTARS were available in theater, could our 
warfighters and tactical intelligence units benefit from its wide area 
surveillance capability? In short, could you use more Joint Stars in 
theater?
    General Mattis. Yes. A shortfall in Ground Moving Target Indicator 
(GMTI) support, which JSTARS provides, is the primary intelligence 
collection shortfall reported by commanders in the field.

                                  <all>

</pre></body></html>
